<html>
<title> - [H.A.S.C. No. 114-45] ASSURING NATIONAL SECURITY SPACE: INVESTING IN AMERICAN INDUSTRY TO END RELIANCE ON RUSSIAN ROCKET ENGINES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                   
 
                         [H.A.S.C. No. 114-45]

                   ASSURING NATIONAL SECURITY SPACE:

                     INVESTING IN AMERICAN INDUSTRY

                       TO END RELIANCE ON RUSSIAN

                             ROCKET ENGINES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 26, 2015

                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     
  


                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-320                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Bruno, Salvatore T. ``Tory,'' President and Chief Executive 
  Officer, United Launch Alliance................................     3
Culbertson, Frank, Jr., President of Space Systems Group, Orbital 
  ATK............................................................     6
Greaves, Lt Gen Samuel A., USAF, Commander, Air Force Space and 
  Missile Systems Center.........................................    34
Griffin, Dr. Michael D., Deputy Chair, RD-180 Availability Risk 
  Mitigation Study...............................................    36
Hyten, Gen John E., USAF, Commander, Air Force Space Command.....    33
McFarland, Hon. Katrina G., Assistant Secretary of Defense for 
  Acquisition, Department of Defense.............................    32
Meyerson, Robert, President, Blue Origin.........................     4
Thornburg, Jeffery, Senior Director of Propulsion Engineering, 
  SpaceX.........................................................     8
Van Kleeck, Julie A., Vice President, Advanced Space and Launch 
  Systems, Aerojet Rocketdyne....................................     5

                                APPENDIX

Prepared Statements:

    Bruno, Salvatore T. ``Tory''.................................    63
    Culbertson, Frank, Jr........................................   103
    Greaves, Lt Gen Samuel A.....................................   143
    Griffin, Dr. Michael D.......................................   154
    Hyten, Gen John E............................................   135
    McFarland, Hon. Katrina G....................................   128
    Meyerson, Robert.............................................    79
    Rogers, Hon. Mike............................................    61
    Thornburg, Jeffery...........................................   113
    Van Kleeck, Julie A..........................................    86

Documents Submitted for the Record:

    Section 1604, from ``Carl Levin and Howard P. ``Buck'' McKeon 
      National Defense Authorization Act for Fiscal Year 2015, 
      Legislative Text and Joint Explanatory Statement to 
      Accompany H.R. 3979, Public Law 113-291''..................   163
    Liquid Rocket Engine--Multi Program Applicability............   164

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................   168
    Mr. Lamborn..................................................   167
    Mr. Rogers...................................................   167

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   177
    Mr. Brooks...................................................   178
    Mr. Coffman..................................................   176
    Mr. Cooper...................................................   172
    Mr. Rogers...................................................   171
    Mr. Turner...................................................   180
    
    
    
    
    
    
    
    
ASSURING NATIONAL SECURITY SPACE: INVESTING IN AMERICAN INDUSTRY TO END 
                   RELIANCE ON RUSSIAN ROCKET ENGINES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                             Washington, DC, Friday, June 26, 2015.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning. I want to welcome everybody to 
our Strategic Forces Subcommittee hearing on ``Assuring 
National Security Space: Investing in American Industry to End 
Reliance on the Russian Rocket Engines.''
    Before I get started, I think we all ought to take note 
today that this is the day of the funeral, those nine families 
in South Carolina. And it is a real tragedy. And I know our 
hearts and thoughts are with them and our condolences to their 
family and friends. As for today's business, we will be 
conducting two panels. In this first panel, we have five expert 
witnesses from the industry who represent current and potential 
providers of the space launch and rocket propulsion for the 
Evolved Expendable Launch Vehicle [EELV] program.
    In our second panel, we have three senior government 
officials who have responsibilities in managing and overseeing 
the EELV program. And we also have an expert adviser to the 
government on recent launch study.
    On panel one, we have Tory Bruno, president and CEO [chief 
executive officer] of United Launch Alliance [ULA]; Mr. Rob 
Meyerson, president of Blue Origin; Ms. Julie Van Kleeck, vice 
president, advanced space and launch programs at Aerojet 
Rocketdyne; Mr. Frank Culbertson, president of space systems, 
Orbital ATK; and Mr. Jeff Thornburg, senior director of 
propulsion engineering at SpaceX. I thank all of you for 
participating in this hearing, providing your perspective on 
national security. I know it takes time and energy to prepare 
for these things. And it is really an inconvenience to come up 
here, but it really helps us a lot in developing public policy.
    So I really appreciate your service. This is our second 
hearing we recently conducted on space. We are dedicating the 
time to this topic because of its significance to our national 
security. Without an effective space launch program, we lose 
all the advantages we gain from space capabilities. Losing 
space for our warfighters is not an option. There are key 
policy and acquisition questions regarding the future of 
national security space that need to be addressed. As we have 
said before, I am committed to ending our reliance on Russian 
rocket engines for national security space launch.
    I believe we must end our reliance in a manner that 
protects our military's assured access to space and protects 
the taxpayers by ensuring we don't trade one monopoly for 
another. The House bill accomplishes this. And I look forward 
to perspectives of our witnesses on the current legislation 
under consideration for fiscal year 2016 NDAA [National Defense 
Authorization Act], both the Senate version and the House 
version.
    Because we are committed to ending our reliance on Russian 
engines, we must invest in the United States rocket propulsion 
industrial base. Investment in our industry for advanced rocket 
engines is overdue. While we may lead in some areas of rocket 
propulsion, we are clearly not leading in all. This is a 
painfully obvious fact considering that two of the three U.S. 
launch providers we have here today rely on Russian engines.
    And it is not just the Russians leading the way. According 
to online press reports, the Chinese may be flying a new launch 
vehicle on a maiden flight this summer with similar 
technologies as the Russians, using advanced kerosene engine. 
The time has come to resume U.S. leadership in space. And I 
believe the companies before us today can help us do that.
    However, I am concerned with the Air Force's recent 
approach in what may amount to a very expensive and risky 
endeavor in development of new engines, new launch vehicles, 
and new infrastructure. Congress has only authorized funding 
for the development of a rocket propulsion system. Launch 
vehicles are not the problem. The problem is the engine.
    Thank you for being with us this morning. I look forward to 
your testimony and discussion of these important topics. I now 
recognize my friend and colleague from Tennessee, the ranking 
member, Mr. Cooper, for any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 61.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman.
    I think we should approach this hearing as all others with 
a great deal of humility. Because I think the bottom line is if 
we had gotten last year's NDAA right, we wouldn't even be 
having this hearing. So we are correcting a self-inflicted 
wound here. Now, there are many self-inflicted wounds depending 
on how far back you want to go in history. It is a little 
embarrassing for America that we haven't been able to duplicate 
or exceed the Russian technology already, given the billions of 
dollars we have expended. But, actually, there are tremendous 
signs of hope because if we had this hearing a few years ago, 
that is when we really should have been worried, but we weren't 
smart enough to be worried back then. Now due to the 
investment, sometimes of our own billionaires and their love of 
space, there are some amazingly exciting things happening. So 
we are really just managing this transition.
    I am confident we can do it. I wish, and I don't know 
whether the Chinese with their Long March missile have, in 
fact, bought the RD-180 or at least copied it successfully, 
something we apparently have been unable to do. But we don't 
want to just be held to the past standard. There are new 
generation technologies that are even more exciting, more 
capable. So how do we effectively transition to that. Company 
competition can be contentious sometimes, but it is also 
exciting. And sometimes it brings out the best in us no matter 
how painful it is. So I am glad we are having this hearing. I 
hope that the net result will be superior congressional 
performance, as well as superior company performance so that we 
can have assured access to space.
    Thank you, Mr. Chairman. I look forward to the testimony of 
the witnesses.
    Mr. Rogers. I thank the gentleman.
    And the Chair would inform the other members if they have 
opening statements, they can submit them for the record.
    Now we will move to our first panel. The witnesses are 
asked to summarize their opening statements. Your full opening 
statements will be accepted into the record.
    And we will start with Mr. Bruno. You are recognized for 5 
minutes to summarize your opening statement.

 STATEMENT OF SALVATORE T. ``TORY'' BRUNO, PRESIDENT AND CHIEF 
           EXECUTIVE OFFICER, UNITED LAUNCH ALLIANCE

    Mr. Bruno. Thank you.
    Chairman Rogers, Ranking Member Cooper, members of the 
committee, I appreciate the opportunity to come here today and 
talk about our ongoing transformation of ULA and our journey to 
replace the Russian RD-180 with an all-American solution for 
our rocket engine. As you know, we partnered with Blue Origin 
last year for the development of the BE-4 engine. It is a 
methane engine. It was 3\1/2\ years into its development. And 
the engine portion of that effort was fully funded, allowing us 
to move out smartly on that activity.
    Rocket science is hard. And rocket engines are the hardest 
part. So prudence required that I also enter into a partnership 
with Aerojet Rocketdyne for the AR1 rocket engine as a backup. 
That is a kerosene engine. It is at present 16 months behind 
the Blue Origin 4 engine simply because it started later. And 
it does require significant government funding in order to 
continue. Both engines are currently on plan. They are meeting 
their project and technical milestones. And, most importantly 
for our Nation, both will bring the advanced engine cycle 
technology that is present on the RD-180 to American shores and 
allow us to regain our leadership in this key technical area.
    Now, as we do all of this, ULA's focus will remain laser 
sharp on mission success and schedule certainty. We are very 
proud of our perfect, on-time successful record of now 96 
consecutive launches, many of which were critical national 
security assets. Now, in order to do all of this and avoid an 
assured access gap and generate the commercial funds necessary 
for this investment in this new engine, it is necessary that we 
be allowed to continue competing with the Atlas launch vehicle 
in order to support those missions and provide the funds that 
are required to do this. And so I am grateful to the House and 
especially for this committee and the work that you have done 
to correct the situation that Ranking Member Cooper referred to 
that will allow us to have true and proper competition going 
forward while we protect our own national security.
    Now, as we stand here today, the industry has matured to 
admit a second provider for national security launch. I think 
that is a good thing. Competition is healthy for the taxpayer, 
and it is healthy for the industry. I look forward to competing 
in this new environment. And I am confident that when there is 
a fair and even playing field, that ULA can come to that field, 
and we can win. So I am optimistic about the future of space 
launch. I am inspired by the missions that I have the privilege 
to be entrusted with. And I look forward to your questions.
    [The prepared statement of Mr. Bruno can be found in the 
Appendix on page 63.]
    Mr. Rogers. Great. Thank you, Mr. Bruno.
    Mr. Meyerson, you are recognized for 5 minutes.

      STATEMENT OF ROBERT MEYERSON, PRESIDENT, BLUE ORIGIN

    Mr. Meyerson. Chairman Rogers, Ranking Member Cooper, and 
members of the subcommittee, thank you for the opportunity to 
speak before you today. Assured access to space is a national 
priority and a challenge that we must meet domestically. Blue 
Origin is working to deliver the American engine to maintain 
U.S. leadership in space and deliver critical national security 
capabilities.
    Our partnership with ULA is fully funded and offers the 
fastest path to a domestic alternative to the Russian RD-180 
without requiring taxpayer dollars. For more than a decade, we 
have steadily advanced our capabilities, flying five different 
rocket vehicles and developing multiple liquid rocket engines. 
We are spending our own money rather than taxpayer funds. And 
we are taking a clean sheet approach to development. As a 
result, we are able to outcompete the Russians, building modern 
American engines to serve multiple launch vehicles.
    Our recent successes demonstrate that. In April of this 
year, our BE-3 engine performed flawlessly, powering our New 
Shepard space vehicle to the edge of space. The BE-3 is the 
first new American hydrogen engine to fly to space in more than 
a decade. United Launch Alliance recognized the merits of our 
approach when they selected our BE-4 for their Vulcan rocket. 
The BE-4 improves performance at a lower cost and is already 
more than 3 years into development. Most importantly, it is on 
schedule to be qualified in 2017 and ready for first flight on 
the Vulcan in 2019, 2 years ahead of any alternative.
    Being available 2 years earlier means that there is 2 years 
less reliance on the Russians. As with any ox-rich [oxygen-
rich] staged-combustion development, there are many technical 
challenges. Blue has made conscious decisions, design choices 
to mitigate risk. And we also have an extensive testing program 
underway, completing more than 60 staged-combustion tests and 
multiple hotfire tests on our powerpack to date. Full BE-4 
engine testing is on track, on schedule to be completed or 
being conducted by the end of next year. And because we own our 
own test facilities, we can do this much faster. Blue is well 
capitalized, and significant private investment has been made 
in the facilities, equipment, and personnel needed to make the 
BE-4 a success.
    The engine is fully funded primarily by Blue with support 
from ULA and does not require government funding to be 
successful. Instead of duplicating private efforts, the U.S. 
Government should focus its resources on developing the next 
generation of launch vehicles to meet national security 
requirements.
    In conclusion, no new engine can simply be dropped into an 
existing launch vehicle. Launch vehicles have to be designed 
around their engines. And launch vehicle providers are the ones 
who are best able to decide what type of engine they need. 
Thank you.
    And I look forward to your questions.
    [The prepared statement of Mr. Meyerson can be found in the 
Appendix on page 79.]
    Mr. Rogers. Thank you, Mr. Meyerson.
    Ms. Van Kleeck, you are recognized for 5 minutes.

  STATEMENT OF JULIE A. VAN KLEECK, VICE PRESIDENT, ADVANCED 
          SPACE AND LAUNCH SYSTEMS, AEROJET ROCKETDYNE

    Ms. Van Kleeck. Chairman Rogers, Ranking Member Cooper, and 
members of the subcommittee, it is a privilege to be here today 
to discuss this important national security issue.
    Simply stated, we have an engine problem on the Atlas V 
rocket, the Nation's best and most versatile national security 
launch vehicle. It uses a Russian-made RD-180 booster engine. 
On behalf of Aerojet Rocketdyne and its 5,000 employees 
nationwide, I want to thank this committee for recognizing the 
problem and taking action.
    It continues to be our position that the fastest, least 
risky, and lowest cost way to fix this problem is to develop an 
advanced American rocket booster engine to replace the Russian 
RD-180. With a focused competitive acquisition based on a 
robust public-private partnership, we firmly believe this can 
be accomplished by 2019. In fiscal years 2015 and 2016, this 
committee took a leadership role by authorizing funding and 
direction for the Air Force to competitively develop this 
engine by 2019.
    Aerojet Rocketdyne welcomes the opportunity to compete for 
this effort for an engine that we call the AR1. Unfortunately, 
more than 6 months have passed since fiscal year 2015 funds 
were authorized and appropriated for the engine development 
program that this committee mandated. And virtually no money 
has been spent. It appears that this engine development is 
being subsumed into a lengthy new launch vehicle development 
and subsequent launch service acquisition.
    Mr. Chairman, earlier this week, you stated in the press, 
and I quote, ``It is not time to fund new launch vehicles or 
new infrastructure or rely on unproven technologies. It is time 
for the Pentagon to harness the power of the American 
industrial base and move with purpose and clarity in order to 
swiftly develop an American rocket propulsion system that ends 
our reliance on Russia as soon as possible,'' end quote.
    You are exactly right. And we wholeheartedly agree with 
you. This is a national security imperative and should be 
treated as such. We have the technology to fix this problem, 
but we must get moving. For the focused public-private 
partnership, Aerojet Rocketdyne has the proven capability to 
develop a state-of-the-art, advanced-technology kerosene-fueled 
booster engine that can be certified by 2019 and be a near 
drop-in replacement for the Russian RD-180 on the existing 
Atlas V.
    Aerojet Rocketdyne is able to say this with confidence 
based on more than 60 years of experience developing and 
producing launch vehicle propulsion. We have at hand these 
technologies as we have worked on them for the last 20 years. 
We have active state-of-the-art liquid rocket engine factories 
that are currently delivering engines supporting upcoming 
national security launches. We are the only domestic company 
that has designed, developed, produced, and flown rocket 
engines with thrust greater than 150,000 pounds thrust. 
Replacing the RD-180 requires nearly a million pounds of 
thrust. We have experience developing large liquid rocket 
engines on short timelines such as our Nation now faces. The R-
68, the first-stage engine on the Delta 4 launch vehicle, which 
produces 700,000 pounds of thrust, was developed and produced 
on a 5-year schedule. AR1 will not be a copy of the RD-180. It 
will be a superior all-American engine and will leapfrog 
Russian technology. AR1 will be available to any U.S. launch 
booster propulsion user and configurable to any launch vehicle.
    The engine's intellectual property will be retained by the 
government. To reiterate, our Nation has an engine problem on 
its premiere launch vehicle, the Atlas V. We must get rid of 
the Russian rocket engine. At Aerojet Rocketdyne, we believe 
the fastest, least risky, lowest cost manner to do this is to 
develop an advanced American engine to replace the RD-180 on 
Atlas V. This can only be done by 2019 with a focused and 
robust engine development program and a public-private 
partnership. Doing so will preserve access to space and 
reinvigorate the U.S. rocket propulsion industrial base.
    Chairman Rogers, I want to thank you again for holding this 
important hearing. These are difficult issues. And each of us 
at the table has competing equities at stake. On behalf of 
Aerojet Rocketdyne, I appreciate you allowing our voice to be a 
part of this conversation. I look forward to your questions.
    [The prepared statement of Ms. Van Kleeck can be found in 
the Appendix on page 86.]
    Mr. Rogers. Thank you, Ms. Van Kleeck.
    Mr. Culbertson, you are recognized for 5 minutes.

STATEMENT OF FRANK CULBERTSON, JR., PRESIDENT OF SPACE SYSTEMS 
                       GROUP, ORBITAL ATK

    Mr. Culbertson. Good morning, Chairman Rogers, Ranking 
Member Cooper, and members of the subcommittee. Thank you for 
the opportunity to appear today. I have submitted my full 
statement for the record, of course. And, in the interest of 
time, I will briefly describe for the committee how Orbital ATK 
is working to support the United States national security space 
systems and launch vehicle programs. As a global leader in 
aerospace and defense technologies, Orbital ATK designs, 
builds, and delivers affordable space, defense, and aviation-
related systems to support our Nation's warfighters, as well as 
civil, government, and commercial customers in the U.S. and 
abroad.
    Our company is the leading provider of small- and medium-
class space launch vehicles for civil, military, and commercial 
missions, having conducted more than 80 launches of such 
vehicles for NASA [National Aeronautics and Space 
Administration], the U.S. Air Force, the Missile Defense 
Agency, and other government, commercial, and international 
customers in the last 25 years, including delivering 
approximately 4 tons of cargo to the International Space 
Station.
    As the committee is aware, earlier this year, the U.S. Air 
Force announced its EELV Phase 2 development and launch 
services acquisition plan. One of the key components of this 
plan, beginning in fiscal year 2015, centers on the rocket 
propulsion [system] or RPS prototype program. We believe the 
Air Force's acquisition plan for RPS is well conceived and, if 
supported by Congress, will be successful in providing new 
space launch capabilities that are affordable, reliable, and 
available by the end of this decade. As both a launch vehicle 
builder and a propulsion system supplier, Orbital ATK is 
prepared to support the Air Force's RPS prototype program. 
Orbital ATK has proposed both solid and liquid propulsion 
system developments that will support a new, all-American 
launch vehicle family that meets all the specified national 
security launch requirements, as well as civil, government, 
commercial, and international launch needs.
    It is true that we are currently using the Russian engine 
on one of our launch systems. That is because it was the only 
one available to us at the time. We had to meet our commitment 
to the International Space Station and deliver cargo. Our new 
systems, however, will be developed in a public-private 
partnership with significant private investment. And we are 
confident that our alternatives will be ready to support first 
flights by early 2019. Orbital ATK is committed to supporting 
our Nation's assured access to space policy. Reliable, 
affordable, and capable space launch systems are critical to 
ensuring our country is prepared to maintain access to space.
    Through the program outlined by the Air Force, we believe 
that U.S. industry is able and poised to respond to this need 
and will provide the best possible combinations of systems for 
the future of U.S. access to space. We appreciate the efforts 
of this committee and this Congress to correct the situation we 
find ourselves in propulsion development in this country.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Culbertson can be found in 
the Appendix on page 103.]
    Mr. Rogers. Thank you, Mr. Culbertson.
    Mr. Thornburg, you are recognized for 5 minutes.

 STATEMENT OF JEFFERY THORNBURG, SENIOR DIRECTOR OF PROPULSION 
                      ENGINEERING, SPACEX

    Mr. Thornburg. Mr. Chairman, Ranking Member Cooper, members 
of the subcommittee, thank you for the opportunity to appear 
before this committee. In addition to my opening statement, I 
have prepared a detailed written statement, which I have 
submitted for the record.
    Mr. Chairman, this country's ability to launch rockets 
without using Russian engines should not be in question. 
America right now has talented rocket scientists, engineers, 
and technicians currently flying or developing innovative, 
American-made solutions to end U.S. reliance on Russia today. 
It bears noting that there has been a concerted movement 
towards national consolidation of the Russian space industry 
and a series of recent failures with Russian rockets, engines, 
and spacecraft.
    Having worked in this business for 20 years for both 
government and private industry, including the Air Force and 
NASA's Marshall Space Flight Center, I can tell you that more 
is happening now in propulsion development in the United States 
than at any time in my career.
    What is SpaceX doing? SpaceX today is the largest private 
producer of liquid-fuel rocket engines in the world. The first 
stage Merlin engine has flown 162 times to space, more than any 
other domestic boost-phase rocket engine flying, including the 
RD-180 and the RS-68 combined. In the past 13 years, SpaceX has 
developed nine different rocket engines. Merlin is the first 
new American hydrocarbon rocket engine to be successfully 
developed and flown in the past 40 years, all while offering 
the highest thrust-to-weight ratio ever achieved.
    We are investing in a next-generation rocket engine called 
Raptor, which will be a fundamental advancement in propulsion 
technology and serve a number of applications for the national 
security space market. And we have captured more than 50 
percent of the global space launch market, unilaterally 
increasing U.S. market share from zero percent in 2012.
    With respect to a national engine program, the Air Force is 
undertaking a strategy to result in not just a rocket engine 
but in launch systems. We believe this approach will, if done 
correctly, benefit the entire U.S. industrial base, properly 
require private industry co-investment, and meet requirements 
for U.S. Government launches. Most importantly, the Air Force 
is seeking to ensure that any new system is commercially viable 
in order to end the current practice of costly and 
unsustainable government subsidization.
    SpaceX stands ready and able to provide access to space for 
the United States with our launch systems today, as well as 
next-generation propulsion launch systems. In May, the Air 
Force certified the Falcon 9 launch system to launch the most 
critical national security space payloads. We appreciate the 
Air Force's confidence. Powered by SpaceX's Merlin rocket 
engine, the Falcon 9 can perform 60 percent of the DOD 
[Department of Defense] launch requirements to date. We are 
also building, qualifying, and certifying the Falcon Heavy, 
which also uses the Merlin rocket engine. Between these two 
launch vehicle systems, SpaceX will be able to execute 100 
percent of the DOD launch requirements and provide heavy-lift 
redundancy for the first time to the government. We anticipate 
Falcon Heavy certification in mid-2017. At the same time, 
SpaceX is developing Raptor. This staged-combustion reusable 
system will not only be extremely powerful but also versatile, 
efficient, and reliable while achieving commercial viability 
through notable risk and cost-reducing improvements. Raptor 
will advance the state of the art, ensure the U.S. remains the 
global leader in rocket propulsion technology, and serve 
important applications for national security space launch.
    Importantly, meaningful competition is reentering the EELV 
program. With this, we have seen the incumbent make promises to 
reduce its costs, innovate, and fund new development efforts 
with private capital. These are good things. Much has been made 
of a so-called impending capability gap in assured access to 
space. The only gap that currently exists relates to heavy-lift 
capability. This is because the Russian-powered Atlas V does 
not have a heavy-lift variant. Otherwise, there is no credible 
risk of any capability gap for national security launch now or 
in the future. Existing vehicles, including the Falcon 9 and 
the Delta 4, are both made in America, certified for DOD 
launch.
    The Atlas will continue to fly through 2020 under current 
law. Even if no engine or launch vehicle is flying by the 
congressionally mandated deadline of 2019, there will be no 
gap. Soon, however, the Falcon Heavy Launch System will close 
the preexisting gap in heavy-lift through internal funding by 
SpaceX. Falcon Heavy will be certified years before any 
proposed national engine program is set to fly. I want to close 
my testimony with some constructive solutions to truly achieve 
assured access.
    First, the United States doesn't need more Russian engines 
to get national security space payloads to orbit. Second, 
continue working to achieve assured access through genuine 
competition between multiple qualified providers with 
redundant, truly dissimilar launch vehicle systems. Third, 
Congress must properly structure its engine development effort 
to maximize smart investment. Any government money should be 
matched at 50 percent by private capital to ensure meaningful 
co-investment. And commercial viability must be a key component 
of the future system.
    Mr. Chairman, thank you. SpaceX, with our U.S.-built Falcon 
9 and Falcon Heavy, as well as our investments in homegrown, 
next-generation propulsion systems like Raptor, looks forward 
to contributing to the Nation's space enterprise. I am pleased 
to address any questions you may have.
    [The prepared statement of Mr. Thornburg can be found in 
the Appendix on page 113.]
    Mr. Rogers. Great. Great job. I thank all of you.
    My first question was going to be to the companies, do you 
think you are capable of providing us a rocket propulsion 
system, an advanced rocket propulsion system that can replace 
the RD-180 by 2019? Mr. Meyerson and Ms. Van Kleeck both 
answered that in their opening statement.
    Mr. Culbertson, I was interested in your opening statement, 
you implied that you all are going to get into competition for 
this replacement engine. Was that an accurate interpretation of 
your opening statement?
    Mr. Culbertson. Yes, sir. We certainly are working towards 
that end.
    Mr. Rogers. Excellent.
    Mr. Thornburg, are you all planning on getting in that 
competition for a replacement engine for the RD-180? And can 
you have it done by 2019?
    Mr. Thornburg. Through our existing launch vehicles with 
Falcon 9 and Falcon Heavy, we can provide 100 percent of the 
Nation's needs for national security space missions. In 
addition, we will continue our investment in next-generation 
propulsion systems and capability to further increase the 
U.S.'s position in propulsion development.
    Mr. Rogers. My understanding is you are talking about you 
can use your Falcon 9 1.1 and Falcon Heavy when it is certified 
to compete for this mission, but you are not planning to get in 
the competition to develop a propulsion system to fit on the 
Atlas V?
    Mr. Thornburg. We are investing internally in next-
generation propulsion systems like Raptor. And we are happy to 
have the conversation about how we can support the U.S. 
Government. And any time the Congress and the U.S. Government 
asks, ``what can industry provide to service the needs of the 
country,'' we are ready to participate in that conversation.
    Mr. Rogers. I heard you make reference to both the Merlin 
and the Raptor. If those, in fact, would work in some way with 
a launch system, would you be willing to sell those to other 
U.S. companies, launch companies?
    Mr. Thornburg. From an engineering standpoint, yes, that is 
something that we would entertain at SpaceX.
    Mr. Rogers. Mr. Culbertson, you wanted to be recognized?
    Mr. Culbertson. Yes, sir. I am not sure I totally 
understood your question correctly. We are not proposing a 
replacement engine for Atlas. We are proposing a launch system 
that would meet the needs of the country in response to the Air 
Force----
    Mr. Rogers. Okay. That's what I thought. You had me excited 
for a minute there. I want a new engine. I don't want a new 
rocket. We want something to replace the RD-180 and if not be a 
drop-in fit on the Atlas V, something that doesn't require a 
whole lot of modifications to work on the Atlas V. I understand 
all of you all like what you have got. And I know Mr. Bruno 
wants a new rocket and a launch system. That is awesome, as 
long as we are not paying for it. We want an engine to be able 
to get our critical missions into space in a timely fashion. 
And 2019, as you know, is a critical time for us. I will now go 
back to the two people I know are going to compete for it, Mr. 
Meyerson and Ms. Van Kleeck. And we will start with Mr. 
Meyerson. Will the cost of your engine be comparable to what we 
are currently paying for the RD-180?
    Mr. Meyerson. According to our customer at ULA, we 
understand it is. It is comparable or better than what is 
being, the RD-180.
    Mr. Rogers. Ms. Van Kleeck.
    Ms. Van Kleeck. Yes, sir, we have designed the AR1 to be at 
or below the price point of the RD-180.
    Mr. Rogers. Okay. I want to stay with you, Ms. Van Kleeck, 
for a minute. Mr. Bruno, in his opening statement, made 
reference to the fact that you were 16 months behind Blue 
Origin in your development of your engine. Could you address 
that observation? And what does he mean by that?
    Ms. Van Kleeck. Well, I don't have my competitor's 
schedule, so I can't say for certain where the 16 months comes 
from. What I can say is we will be certified by 2019. We are 
very confident about that. We have spent 20 years developing 
this technology from the Russians, that was pioneered by the 
Russians. We have the factories. We have a schedule. We will be 
testing full-scale engines in the beginning of 2017. We will 
provide a full engine set to ULA in 2018. And we will complete 
certification in 2019.
    Mr. Rogers. 2018 or 2019?
    Ms. Van Kleeck. We will complete certification of the 
engine in 2019.
    Mr. Rogers. Mr. Meyerson, tell us what your schedule is. 
When do you think you will complete certification?
    Mr. Meyerson. We believe the engine will be qualified in 
2017 and certified for flight on the Vulcan in 2019 or ready 
for the first flight on the Vulcan in 2019, with certification 
of the system coming after. We have been working at this for 
more than 3 years. And we have the facilities and the people 
and processes and equipment in place to do so. So we have high 
confidence in our schedule. We are testing hardware now. We are 
testing today. So the confidence, the level of data is well 
ahead of any alternative. So that is what gives us the 
confidence in our schedule.
    Mr. Rogers. Now, you made reference to the Vulcan in your 
opening statement. And I know Mr. Bruno really wants to have a 
Vulcan launch system.
    Mr. Meyerson. Yes.
    Mr. Rogers. We are interested in the Atlas or I am in my 
questioning. Will your engine work on the Atlas with 
modifications? And how significant a modification would it 
take?
    Mr. Meyerson. So our engine runs in liquid oxygen and 
liquified natural gas. So, no, as it is, as the Atlas is 
designed, it will not integrate with the Atlas.
    Mr. Rogers. We would have to have a new launch system?
    Mr. Meyerson. That is right.
    Mr. Rogers. Okay.
    Mr. Bruno, let's talk about this Vulcan system. Tell me 
where that came from and when you see that happening and how 
does that play into what we are doing right now. Given, you 
know, our previous testimony and my comments publicly and our 
conversations privately, I feel very strongly, I just want a 
replacement for the RD-180. Why are we talking about the 
Vulcan?
    Mr. Bruno. Certainly. Well Vulcan really refers to a series 
of evolutions to the Atlas that takes several years to 
accomplish. The first step in that evolution is simply 
replacing the engine that is on the Atlas. So whether it is an 
AR1 or a BE-4, that Atlas with that new engine would be called 
Vulcan and it would still have the Atlas upper stage, Atlas 
fairings, Atlas strap-ons. It is essentially an Atlas with a 
new engine. If I might take a moment, I would like to expand on 
my colleagues' answers, I think they were far too modest when 
they responded to your question relative to the cost of their 
engines.
    First, understanding that there is no such thing as an RD-
180 drop-in replacement, we are not at this time capable of 
replicating the performance and the thrust level of the RD-180. 
What they are talking about is providing a pair of engines that 
would replace the single RD-180. That pair of engines we expect 
to be upwards of 35 percent less expensive than a single RD-
180. So while the performance of the engine is only first 
generation and lagging what the RD-180 has, the manufacturing 
technology is a giant leap ahead.
    Mr. Rogers. I will get back to you all on my next round of 
questions. I want to turn to my friend now from Tennessee, the 
ranking member, for any questions he may have.
    Mr. Cooper. Thank you. I appreciate the expertise on this 
panel. And I appreciate my friendship with the chairman. I am a 
little worried that we are pursuing a unicorn here because I 
think Mr. Bruno just said there is no such thing as a 
replacement for the RD-180 engine, there is no drop-in 
equivalent. And we are kind of fooling ourselves if we think 
there could be, at least in the reasonable future.
    Now, there are some, you know, workarounds, replacements. 
And there is certainly new launch systems. So continuing the 
theme of my opening statement, I think our first role should 
be, ``first, do no harm,'' because we wouldn't even be here if 
we had gotten the language right in last year's NDAA. So I am 
not a technical expert. I am certainly not a rocket scientist. 
But it seems to be that in this testimony there are some 
remarkable differences.
    First of all, I regret, it is a little bit unfair, the 
witnesses are at least three to one against SpaceX. And I am 
not sure that is fair. Perhaps we should have given Mr. 
Thornburg three times the time. It may be three and a half to 
one against, but he more than held his own. And it should be 
exciting for all Americans that we have billionaires and 
entrepreneurs who are willing to devote so much of their 
resources to coming up with new and apparently more efficient 
solutions.
    But the factual question, is there a gap? It seems to me 
that we need at least 9 RD-180s. We may need 29. We may need 
more than 29. And, meanwhile, a lot of what you hear on the 
Hill is a lot of bad-mouthing of the Russians. And there is 
plenty of reason to bad-mouth at least their leaders. But while 
we are dependent on the RD-180, it may not be the smartest 
thing strategically to bad-mouth the source.
    Hopefully, we can overcome this gap. And Mr. Thornburg's 
testimony is that the real gap is the premature decision to 
retire the Delta Medium. So there you don't blame the Russians, 
you blame us. Or the gap could be the Air Force dragging their 
feet to certify the new Falcon Heavy. And certainly there are a 
lot of worthy and important requirements and certification, 
three required successful launches, lots of things. I loved Mr. 
Culbertson's quote of Wernher von Braun when he said: We can 
lick gravity, but sometimes the paperwork is overwhelming. What 
Congress is really good at is paperwork and putting in 
artificial requirements that oftentimes impede the private 
sector's ability to innovate.
    I get worried that when it comes to a drop-in engine, you 
are talking about my beloved old Chevrolet Impala and trying to 
find a new V-8 to put in the old vehicle. I want a car that 
will work, not just an engine that will perform. And when we 
talk about assured access to space, we want a vehicle that can 
get our payloads up into the appropriate orbit. And it may be 
that we haven't had enough discussion on this panel of 
appropriate orbits, and maybe we can't do that in an open 
setting. But we have to serve all of our national security 
needs. And some of those are harder to achieve than others.
    So I hope that this hearing, and it may take the second 
panel to do it, will be able to resolve the question of whether 
there is a gap and, if so, how large, and how best to bridge 
that gap. And to a certain extent, all of the witnesses are 
asking us to buy some vaporware because nobody can predict, 
nobody has a perfect crystal ball. One tends to believe in Mr. 
Bruno when he says really, getting realistic, ain't going to 
happen before 2021, 2023, maybe because it takes time, at least 
the American way of doing it. I hope it is not that long. And 
we should all be encouraged with the new methane engine, the 
Blue Origin is completely amazing. But also the idea of the 
Raptor is totally amazing. But some existing accomplishments 
are things we should be deeply proud of.
    I am a little bit worried about Mr. Thornburg's methodology 
because the Falcon uses 9 or 10 engines. And you claim an 
engine heritage that is able to be multiplied due to the number 
of engines. It makes me think that if the Falcon 9 were 
composed of 100 engines, then you would have a track record 10 
times or 100 times more successful than all the RD-180s. That 
is, perhaps, a specious methodology for coming up with a track 
record. But still you can't deny the accomplishments because 
you have exceeded what most people would have expected. But, 
again, our job here is to not stand in the way of progress. And 
I think the statement of administration policy was pretty on 
point when it said so often the congressional language, 
especially last year's section 1608, gets in the way.
    So how do we resolve this in a sensible way? We want 
commercial competition. We want assured access to space. But, 
above all, we have to have assured access to space. So I am 
hopeful that the witnesses can help us resolve these questions. 
And, as I say, it make take the second panel, but there seems 
to be general consensus that no one is talking about a drop-in 
engine. Because it is my understanding that even the proposed 
solutions are either 18 inches too long or 4 inches too long or 
there are really two engines instead of one engine. So the 
chairman's goal, as worthy as it may be, is really not 
available from any of the witnesses on this panel. Now, the 
chairman's goal of cost savings is extremely important. But I 
don't need to remind members of the Armed Services Committee 
how much money we are wasting on various things here or there. 
And in the scheme of things, the money we are talking about 
here is relatively small and manageable. The key is assured 
access to space.
    So if any of the witnesses want to correct my impressions, 
I spent much of last night reading your testimony. It was very 
helpful. But it also is so conflicting, it is hard to find 
where the truth lies. So I hope--Ms. Van Kleeck, you seem 
poised.
    Ms. Van Kleeck. Yes, yes, sir, thank you for the 
opportunity. Rockets have been re-engined in the past, okay, on 
numerous occasions both in this country and others. There is, 
you can replace rocket engines. The AR1 is a near drop-in 
replacement. It uses----
    Mr. Cooper. The AR1 is----
    Ms. Van Kleeck. Yes. And I will explain the differences. 
And they are minor. There is, we can reproduce an RD-180 in 
this country. It would cost, in my opinion, more money than it 
would to develop a new engine. It is a very complex engine. It 
would also cost a lot from a recurring standpoint. And I think 
it is time for the U.S. to leapfrog that technology anyway.
    The AR1 uses the same propellant. It has the same engine 
cycle, so it has a very similar environment. It would use the 
same tankage, would have the same attach points, has the same 
performance, not lower performance, the same performance. It is 
two engines. We did look at making it a single engine. But two 
engines is probably a better long-term solution for the U.S. 
because it can be used in multiple other applications in the 
future. And you can have the exact same physical attach points 
with the two-engine solution, so really where the propellant 
feeds the engines and how it attaches. It is 11 inches longer. 
But we have been told by ULA engineers that the length is not 
an issue; there is length to work with. That will affect minor 
ground support equipment but it is very minor. We are talking 
modest modifications, things that we have done in the past. So 
it is as near to a drop-in replacement as can be made.
    Mr. Cooper. But there are many other issues, acoustics. You 
know, and Mr. Bruno was saying just because you started late, 
you are 16 months behind. So we don't know what they will 
choose in the down select a year or two from now.
    Ms. Van Kleeck. Yes, sir. That is a fact. The acoustics, 
every rocket engine has a specific signature. The fact that it 
is the same cycle, runs at a very similar operating point, we 
would anticipate that would be similar.
    Mr. Cooper. But there have been lots of anticipations that 
didn't necessarily pan out. And for assured access to space, we 
need something that will work.
    Ms. Van Kleeck. Yes, sir. But we have been a part of re-
engining numerous launch vehicles over time. And we have been 
successful with those re-enginings. This engine has been 
designed from the beginning to be a replacement to Atlas V. 
Because we saw this problem coming 10 years ago. And we have 
focused on that. We understand the Atlas V very well. This 
engine was designed to interface with the Atlas V.
    Mr. Cooper. Well, you may have seen the problem 10 years 
ago, but you are 16 months behind right now, even Blue Origin 
and some of these other things. So what, that puts us in a 
tough spot. We have to measure the gap and figure out how to 
fill the gap.
    Ms. Van Kleeck. You know, whether we are, again, we feel we 
can meet 2019, whether we are 16 months behind or not, we 
would, one would have to look at the details of these schedules 
and the different milestones to really come to that. I have not 
seen that.
    Mr. Cooper. Mr. Chairman, I think my time has more than 
expired. Thank you, sir.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    One of the concerns I have is when you consider the House's 
position and the Senate's position on RD-180s, our positions 
are different. And I have heard that ULA is interested in 
developing the Vulcan to the extent that they have a certain 
number of RD-180s available for the future. And if we don't 
have that certain number, then they are not interested in 
developing the Vulcan.
    My question for you, Mr. Bruno, is what happens if the 
Senate doesn't come the direction of the House? In that case, 
what happens to the Vulcan and what is your backup plan?
    Mr. Bruno. So either engine path that has just been 
discussed requires significant investment on the part of ULA. 
Without the continued revenue generation of the Atlas, until 
that new American engine is available, we will lack the funds 
to be able to accomplish that activity. Without that, we are 
entering into a marketplace where the Air Force market has 
declined and is incapable of supporting two providers.
    Now, the good news is the overall lift market is large 
enough to support both of us, both the new entrant and us and 
the other traditional suppliers. But in order to be a viable 
economic entity in that environment, we need to be able to 
effectively compete for civil and commercial missions in 
addition to competing for national security space missions. 
Without that lower-cost rocket and without the investment 
required to get there, we are simply not economically viable in 
that window.
    Mr. Bridenstine. You indicated that with the commercial 
launches in addition to the military launches that there would 
be economic viability for multiple providers. And it looks like 
even, you know, we might get a third provider with Orbital ATK 
potentially participating. That being the case, is there a 
reason ULA couldn't get private capital to support the 
investment?
    Mr. Bruno. It is unlikely that the capital markets would 
look at this uncertain investment environment any more 
favorably than our parents do. So investment really dislikes 
and avoids uncertainty. And as we sit here today, it is very 
uncertain whether the Atlas will even be available to fly 
during the period between the end of its current contracts and 
the availability of the new rocket engine. So that leaves a 
multiyear period of time when we have no product to bring to 
the marketplace. Not very likely I could attract money from 
capital markets for that.
    Mr. Bridenstine. Mr. Culbertson, does Orbital ATK agree 
with that position, that it is not worth the investment if 
there is not more RD-180 engines? Obviously, you guys are doing 
it without the RD-180 engine.
    Mr. Culbertson. I can't really comment on ULA's position on 
this. We do see a market out there, but it is still pretty slim 
in the classes we are discussing here. We actually are working 
with ULA to continue to supply cargo to the International Space 
Station. After we had the accident, they, SpaceX, and a couple 
other companies stepped forward and said: We can give you a 
ride.
    And we have contracted with them on a commercial basis to 
do that. So we are sort of the beginning of their commercial 
market to continue to fly. But we also are continuing to 
develop our own systems to fly not only to the space station, 
but to fly national security missions.
    Mr. Bridenstine. Mr. Thornburg, when you think about the 
commercial market with the EELV program, is the market big 
enough? And for how many providers? And, clearly, you guys are 
already making the investment privately.
    Mr. Thornburg. Correct. And I would also say, you know, 
that as an engineer, I am not necessarily studying the markets. 
But I can say that SpaceX believes there is, that we can be 
very competitive across the market. As I mentioned in my 
opening statement, we have recaptured for the United States 50 
percent of the launch market share. So certainly with more 
cost-effective launch solutions, the market does open up.
    Mr. Bridenstine. And for Mr. Bruno, you would know that the 
United States and we, as Members of Congress, we want to make 
sure we have assured access to space which means we need 
multiple launch service providers for the EELV program. That 
being the case, your investors have got to understand that it 
is not in our interest as a Nation to have two providers and 
one of them go out of business and end up with a monopoly, 
which means there is going to be some level of security, would 
you agree with that? And are your investors, your parents, 
aware of that?
    Mr. Bruno. The only data I have to operate on at the moment 
is the forecasts that the government has provided for the space 
lift that occurs in that window of time. And it is important to 
remember that we are the ride for national security assets. 
They are recapitalized in waves. So we are currently 
recapitalizing a set of national security satellites that are 
well past their design life. That is going to complete in a 
short number of years. There will be a long trough until the 
new assets run out of life, and then they will be 
recapitalized. So it is very cyclic. What has been forecasted 
to us by the government--and it is a pretty sound forecast 
because we can see the satellites in the pipeline being 
designed and built--is that that marketplace drops from about 8 
to 10 a year to 5. And then that will be divided between at 
least two providers, so two or three. And that is not a 
sustainable economic model if you do not also have access to 
civil and commercial markets.
    Mr. Bridenstine. Okay.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank you very much.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    First, Mr. Bruno, congratulations for an outstanding record 
of success. Jeff Bezos, founder of Blue Origin and Amazon, 
said, quote, ``ULA has put a satellite into orbit almost every 
month for the past 8 years. They are the most reliable launch 
provider in history. And their record of success is 
astonishing,'' unquote. I am proud that ULA is headquartered in 
Colorado. I am fully confident ULA will remain very competitive 
in the future. You enjoyed an exclusive contract because of 
your competence. But I want to ask you what exactly can 
Congress do to ensure that across the board we have created an 
environment that promotes innovation while not unfairly tipping 
the playing field towards or away from any potential provider.
    Mr. Bruno. Certainly. But, first, I have to observe that 
that comment reveals that Mr. Bezos is obviously a very 
intelligent man. So in order to have a fair and even 
competitive playing field that is healthy and in the interest 
of the government and good for industry, it is important, of 
course, that the participants in that competition are able to 
bring competitive products to the marketplace. That is why we 
need continued access to Atlas.
    In addition to that, the competition itself needs to be 
fair and even. So we must be held to the same technical 
standards in terms of the performance and the missions that we 
are able to fly, as well as the contracting requirements. So, 
today, the ULA is required to perform to what is called FAR 
[Federal Acquisition Regulation] Part 15, which are a set of 
very complex and sophisticated acquisition regulations. They 
require for us to provide elaborate, extensive, and expensive 
financial recording, tracking, and reporting systems.
    Our competitor in a commercial marketplace does not. So all 
of these elements have to be leveled. And then I would also 
advise the government that for national security missions, for 
which our Nation's safety depends and warfighters' lives are at 
risk, that a low-price, technically acceptable, type of priced 
shootout is not an appropriate methodology. You wouldn't buy 
your car that way. You wouldn't buy your home that way. And our 
soldiers' lives should not be dependent upon it. So when 
competing and when making selections, they should consider cost 
equally balanced with technical performance, reliability, and 
schedule certainty. Remember, I mentioned that the assets being 
recapitalized are generally beyond their design life. There is 
an urgency to replacing them as soon as possible. That, too, 
should be considered.
    Mr. Coffman. Thank you.
    Mr. Thornburg, congratulations on the successful 
certification of Falcon 9. In March, Ms. Shotwell testified in 
this committee that you have DCAA [Defense Contract Audit 
Agency] auditors doing manufacturing audits right now, and your 
cost and your rates have been audited. Was that testimony 
correct? And can you briefly describe the frequency and extent 
of the DCAA audits that SpaceX undergoes and the number of DCAA 
personnel resident at SpaceX facilities?
    Mr. Thornburg. To your first question, was her testimony 
correct, yes, the answer to that is yes. With regard to the 
questions about DCAA audit and frequency, in my position within 
engineering and working engine and vehicle development, I am 
not familiar with the frequency of the visits. I can tell you 
that we are working very closely with the Air Force and the 
DOD. I would be happy to go collect that information and return 
it for the record.
    Mr. Coffman. I would really appreciate if you could get 
that back to us for the record.
    Mr. Chairman, I yield back.
    [The information referred to can be found in the Appendix 
on page 168.]
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this very 
important hearing. And thank you for the timeliness of this 
hearing.
    Mr. Thornburg, I would like to ask you about the current 
version of the Merlin engine that you are using. Is it the new, 
is the new baseline, is the full thrust Merlin engine the new 
baseline for the Falcon version 1.1 going forward? And does 
SpaceX intend to bid that system for upcoming EELV launches?
    Mr. Thornburg. The current engine we are flying is the 
Merlin 1D boost engine. Your reference to the full thrust is a 
minor upgrade to that engine that basically takes the full 
potential of that engine system for future missions on the 
Falcon 9 1.1.
    Mr. Lamborn. Now, what are the differences between the two 
systems, both hardware and software? I heard there are hundreds 
of differences. Is that correct?
    Mr. Thornburg. I can't recall the exact number of 
differences. I can say that from a technical standpoint 
engineering-wise, the differences are very minor in terms of 
the changes in the upgrades to the engine. It is all in line 
with our continual improvement of our propulsion systems and 
overall vehicle systems. But, essentially, we are taking the 
existing Merlin 1D with its present design and performance and 
taking the additional performance that we have available there 
and offering it to our customers to enhance the performance of 
the Falcon 9 1.1 system.
    Mr. Lamborn. But what I am trying to get at is with the 
changes that you have incorporated, does the previous 
certification cover the new, what amounts to what I would 
consider a new version once you have started making a lot of 
changes?
    Mr. Thornburg. As far as the certification effort to date, 
the recent certification of the Falcon 9, the Merlin 1D engine 
now and going forward, the bulk of that is identical. So we are 
talking about minor changes and upgrades to the system that 
will be reviewed through ongoing and future Engineering Review 
Board activity with the Air Force.
    Mr. Lamborn. So even though there are an undetermined 
number of changes, indeterminate number of changes, you can't 
give a number, you don't think that amounts to anything worth 
recertifying?
    Mr. Thornburg. No.
    Mr. Lamborn. Or reopening the----
    Mr. Thornburg. No. And I can comment that the ongoing 
dialogue with the Air Force through the certification process 
has been fantastic. We are working very closely with the Air 
Force as well as the Aerospace Corporation. The type of 
improvements and modifications that the Falcon 9 launch vehicle 
is going through now is no different than improvements that 
Atlas and Delta have taken on over the years. So we are in line 
with that in terms of the initial certification and then 
ongoing certification activities as these improvements come 
online.
    Mr. Lamborn. Okay. I just wish there was a little more 
certainty in this. Because you can't even tell me how many 
changes there are. I guess that is a concern I think we should 
get to the bottom of.
    Changing gears here, Ms. Van Kleeck, what advanced 
technology does the RD-180 use? And why isn't it important that 
we bring that technology to the U.S.?
    Ms. Van Kleeck. Well, the RD-180 is what is called an ox-
rich [oxygen-rich] staged-combustion engine. It is a closed-
cycle engine which, closed-cycle engines are the most efficient 
engines that can be, chemical rockets that can be produced. The 
RS-25 that powered the space shuttle was also one of these 
engines. The Russians pioneered and perfected the ox-rich 
staged-combustion engine during the Cold War. And the U.S. 
didn't. The U.S. perfected solids and hydrogen systems. It is a 
very high-performing, hydrocarbon engine. It provided a lot of 
advantage to the original Atlas vehicle. Some of the things 
that are in it are advanced coatings, advanced materials. It is 
very compact, very high pressure. Those are things, 
particularly the materials, were things that this country did 
not choose to pursue and didn't develop. And so that is where 
the--there is a technology gap in this particular variant of 
rocket engines in this country.
    Mr. Lamborn. Mr. Meyerson, do you agree with that 
assessment?
    Mr. Meyerson. In terms of the RD-180 and the importance and 
the efficiency of the cycle, yes, I agree. I think, you know, 
if you look back to the time that Lockheed Martin, ULA's 
parent, and the choice of the RD-180 was an enabler for the 
Atlas V. That Atlas V rocket would not have worked without the 
RD-180. Today, I think it is time to take a fresh look and look 
at a new engine. The ox-rich staged-combustion cycle is 
critical. And that is what Blue Origin has chosen for the BE-4. 
But the BE-4 is the enabler for the next generation of American 
launch vehicles. And it is--the choice of methane, liquified 
natural gas, as the propellant is one of those enablers.
    Mr. Lamborn. Okay. Thank you.
    And thank you all for being here.
    Mr. Rogers. I thank the gentleman. I will start our second 
round of questions. I was listening to my buddy from Tennessee 
when he was talking about his Chevy and dropping a new engine 
in and how sometimes that wasn't all that easy because, you 
know, I made it very clear, my priority is to re-engine the 
Atlas V. And it just reminded me as he was talking, he and I 
had the true privilege to meet with an American treasure 
earlier this week, retired General Tom Stafford, also an Apollo 
astronaut. And we both visited this topic with him, you know, 
how big a deal is this to re-engine this rocket? And he 
basically said: It is nothing. We re-engined fighter jets for 
generations. And that is much more complicated than what we are 
talking about here.
    And so, with that backdrop, Mr. Culbertson, your company is 
in the process of changing the engine in the Antares launch 
vehicle from the NK-33 to the RD-181 Russian engine, is that 
correct?
    Mr. Culbertson. Yes, sir.
    Mr. Rogers. Considering your current experience, how 
reasonable is it to change an engine to an existing launch 
vehicle?
    Mr. Culbertson. It depends on the background of the engine 
and what it was originally designed for and the maturity of it 
at the time that you move forward with it.
    The engine that we are using in the future generation of 
Antares launch vehicles, which we intend to start flying next 
year, was specifically designed as a replacement for the NK-33, 
which the AJ-26 was based on. So the arrangement of the thrust 
vector, the piping, if you will, for the fuel systems, the 
connections, the size of the engine, and the thrust levels were 
all very comparable to the NK-33 because it had been in 
development for almost 10 years now to replace that engine on a 
couple of different Russian rockets. So when we started talking 
to them over 3 years ago, they were pretty far along on that 
path already. We did a lot of analysis to make sure that it 
would, in fact, be compatible. And when we reached the point 
where we needed to move forward with another engine, it was the 
one that was most likely to succeed in our application and the 
one that was available to ensure we could continue to deliver 
cargo.
    Mr. Rogers. Great. Ms. Van Kleeck, you have already heard 
some reference to it today in the interchange with the ranking 
member, and in the next panel, we are going to hear that it is 
going to cost a significant amount of money to re-engine the 
Atlas V with the AR1. Can you address where 200--and as I 
understand it, you are going to hear it is going to cost at 
least $200 million to modify the Atlas V for the AR1. Can you 
address that?
    Ms. Van Kleeck. Yes, I can. We have been working closely 
with ULA for several years now on replacing an RD-180 in 
various forms. Like I said, we have looked at this problem over 
the past 10 years. We have an active contract right now 
identifying the specific changes that need to be made, assuming 
this goes into an Atlas V vehicle. We are also looking at a 
Vulcan configuration. That configuration requires a different 
launch vehicle. Relative to the Atlas, I have summarized the 
changes that need to be made, and I will submit those for the 
record.
    [The information referred to can be found in the Appendix 
on page 167.]
    Ms. Van Kleeck. In terms of the estimate for those costs, I 
have heard a variety of numbers. I have never heard a $200 
million number. A number I have heard for the changes 
associated with an AR1 going into an Atlas V, are low tens of 
millions of dollars. I think that cost estimate is--still needs 
to be refined, but the type of modifications that are required 
are very minor.
    Mr. Rogers. For the AR1?
    Ms. Van Kleeck. For the AR1 to fit on the Atlas V vehicle. 
Yes, sir.
    Mr. Rogers. Okay. Mr. Meyerson, same question.
    Mr. Meyerson. Well, can I add to Mr. Culbertson's comment, 
his response? The key word was that 10 years of investment by 
the Russian government to develop a replacement for the NK-33, 
which was developed into the AJ-26, that is the key point. Ten 
years, and we don't know how much money was invested. The BE-4 
is being developed. It is fully funded. We are more than 3 
years into development. So this engine is real. There is real 
hardware to see. It is not a paper engine.
    Mr. Rogers. Great. Tell me, Mr. Bruno has stated that both 
the BE-4 and the AR1 would work on the Atlas V with 
modifications. One with more modifications than the other. Can 
you describe the extent to which we would have to modify the 
Atlas V for your engine to work?
    Mr. Meyerson. I think that is a better question for Mr. 
Bruno. But the engine, when you are developing a new engine, 
you start with requirements, and the details really matter. 
Because the BE-4 is so far along in its development, those 
details are much more well understood so that Mr. Bruno's team 
at ULA can look at that and design the right system to meet the 
national security need.
    Mr. Rogers. Mr. Bruno, I would love for you to visit this 
topic.
    Mr. Bruno. Well, this is an excellent sort of example of 
the difference between an engine provider and a launch vehicle 
service provider. It will not cost tens of millions of dollars 
to incorporate any version of an AR1. Recall that we started 
with an understanding that the performance level coming out of 
either of these two engines will not match the RD-180, and we 
will be using a pair of engines to do that. The thrust level--
--
    Mr. Rogers. Let me stop you there. Will the combined thrust 
of the two engines be comparable to the RD-180?
    Mr. Bruno. Yes, it will. In fact, it will be larger than 
the two.
    Mr. Rogers. Okay.
    Mr. Bruno. In addition to that, the RD-180 uses a very 
novel thrust vector control system to move the nozzle and steer 
the rocket based on fluidics that tap off the engine fuel 
system. That is also a technology that does not exist in the 
United States, and, by the way, one that we do not have an 
interest in developing. So there will be a new thrust vector 
control system to go along with that. So when we do all of 
that, with the new performance point that is required and the 
new thrust levels that will be delivered, there will be 
software changes; there will be structure changes; there will 
be alterations to the pad to accomplish even the AR1. The 
number that was quoted was not unreasonable, but I think you 
will hear from----
    Mr. Rogers. $200 million, I think, we are going to hear 
from the Air Force later.
    Mr. Bruno. Right.
    Mr. Rogers. Do you think that's an accurate?
    Mr. Bruno. I do think that's an accurate.
    Mr. Rogers. That is for the AR1?
    Mr. Bruno. That is for the AR1. I can drive that number 
down if I am willing to leave the tank exactly the same size 
that I have on Atlas. But if I do that, because of the lower 
efficiency of that engine and its first generation as a launch 
system for several missions, I will be adding one or more solid 
rocket boosters to the launch vehicle. And so the cost 
competitiveness, the affordability of that system, will be less 
than the Atlas today.
    Mr. Rogers. So getting you those modifications moves you 
towards the new rocket system you want, but is not necessary 
for the replacement engine that we are pursuing, or that I am 
pursuing?
    Mr. Bruno. It will not lift the same missions. So I think 
you are asking me, could I keep the tank size the same, take 
the engine that I am--that is made available to me, strap on 
the extra strap-ons and just deal with the additional cost. I 
could do that for the first set within the fleet. So remember 
that the Atlas is a fleet of rockets, the least capable of 
which is equivalent to a Falcon. There are much more difficult 
orbits that we go to. Eventually, there is a limit to how many 
strap-ons I can physically attach to the rocket because of the 
way the rocket is configured. Those most difficult missions 
would suddenly become out of reach of an Atlas in this 
configuration without a longer tank to carry more fuel.
    Mr. Rogers. Okay. Now that is the AR1 we are talking about. 
Let us talk about the BE-4.
    Mr. Bruno. Yes. So the BE-4 requires more extensive changes 
to our infrastructure and to our rocket.
    Mr. Rogers. So what the does $200 million figure turn into 
with the BE-4 as the down-selected engine?
    Mr. Bruno. It would not be unreasonable to triple or 
quadruple that number.
    Mr. Rogers. So $600 to $800 million?
    Mr. Bruno. Yes.
    Mr. Rogers. Okay. Let's talk about the other infrastructure 
involved when we change--let's say we do change to a new 
rocket. And I am not saying I am ready to go there, but what 
else is required for the launch? I mean, modifications other 
than just the rocket. Don't you have to change the 
infrastructure that you use for the launch process?
    Mr. Bruno. Yes. So, you know, you can think of it in these 
pieces: there is the rocket; there is the pad; factory, of 
course, with its tooling; and then the equipment that we use 
actually at the launch site to integrate the rocket with the 
satellite and roll it out.
    So those things, you know, are more dependent upon the 
physical size and configuration of what changes we have to make 
to accommodate the engine. So my colleague is correct, there 
are far fewer changes with the AR1, because it is the same 
propellant, and so the diameter and the length of the rocket 
will be much more similar, much more of the tooling in the 
factory can be the same. The equipment at the launch pad can be 
only slightly modified and the pad will have smaller 
modifications.
    For the methane engine, because methane is less dense, the 
tank will be much larger. I will have to replace much more 
tooling in the factory. I will have to redo what is called the 
mobile launch platform that moves the rocket to the pad, and 
then the changes to the pad are more extensive.
    Mr. Rogers. Are those costs a part of the tripling or 
quadrupling?
    Mr. Bruno. Yes.
    Mr. Rogers. So that was a comprehensive figure.
    Maybe I missed it, but were you able to explain the 
difference in the 16 months of lead that you assert the Blue 
Origin has over Aerojet in their development?
    Mr. Bruno. Yes. So both companies are under contract with 
us. We have, you know, sort of weekly engagements, monthly 
formal program reviews. We are tracking both schedules side by 
side. As I mentioned in my opening remarks, Aerojet Rocketdyne 
started several years later than Blue Origin, and that is 
essentially the nature of the 16 months.
    Mr. Rogers. Okay. Thank you. This would be for all the 
witnesses. Do you agree that the government should own the 
intellectual property of any investment it makes in a new 
propulsion system?
    Mr. Meyerson, I know you are talking about your private 
money. But if we are going to invest money in it, do you 
believe that we should own some of the intellectual value?
    Mr. Meyerson. I think if the government fully invested in 
the system, they should own the IP, yes.
    Mr. Rogers. Ms. Van Kleeck.
    Ms. Van Kleeck. Yes, sir. I do agree.
    Mr. Rogers. Mr. Culbertson.
    Mr. Culbertson. Yes, sir. If the government has invested a 
majority of the money, then they should, as the law allows, own 
the IP for it. But the companies also investing should own 
their IP that they develop to enable the systems.
    Mr. Rogers. Mr. Thornburg.
    Mr. Thornburg. I agree with my colleagues in that if the 
government fully invests, then they would own and retain the IP 
rights. But for systems that are privately developed, they 
would not.
    Mr. Rogers. Now, I am a recovering attorney, so two of you 
used the term fully invest, Mr. Meyerson and Mr. Thornburg.
    What if we paid for 60 percent of the development cost, is 
that something that you believe should inhibit our owning a 
percentage of the intellectual property's value? Let's start 
with Mr. Thornburg.
    Mr. Thornburg. I think it would depend on what type of 
development we were talking about in terms of the technology. 
If the technology was an offshoot of something that had been 
completely developed and invested by the private corporation, 
maybe not. But I think it would be case dependent.
    Mr. Rogers. Mr. Meyerson.
    Mr. Meyerson. I think the contracting methods, there is 
public-private partnerships, and there are mechanisms that can 
be in place to allow industry to invest and account for shared 
ownership.
    Mr. Rogers. That is one of my concerns. We have already set 
aside a little over $400 million for this, and we project that 
by the time it is all said and done, $1.3- to $1.5 billion is 
going to be spent in pursuit of this new engine, and as much as 
$800 million or more may be paid for by the Federal Government. 
So it just seems to me that there should be some interest that 
we have in the intellectual property that arises out of that.
    I want to ask the witnesses this, and this is for all the 
witnesses: Are there clear requirements from the Air Force as 
we go into this process about what they are expecting, and do 
you think they are not only clear, but fair and reasonable?
    Mr. Meyerson.
    Mr. Meyerson. I think--yeah, I think that the requirements 
are clear. Yes.
    Mr. Rogers. Ms. Van Kleeck.
    Ms. Van Kleeck. I assume you are referencing the current 
acquisition process that is underway?
    Mr. Rogers. Yes, ma'am.
    Ms. Van Kleeck. Yeah. And there is a--there is a process 
that is well spelled out in that. It does focus more on an 
ultimate launch service as opposed to an engine, but it is 
spelled out. I think there is a lot of different paths that 
that particular process can go.
    Mr. Rogers. Mr. Culbertson. I am sorry.
    Mr. Culbertson. Yes, sir. We do feel like, based on our 
experience in both the commercial and the government market, we 
understand the requirements of the Air Force and what they are 
looking for, and we do think it is focused on a system that 
could be developed in a public-private partnership that would 
give the government the most options for competition as well as 
success.
    Mr. Rogers. Mr. Thornburg.
    Mr. Thornburg. With regards to the ongoing source selection 
activity, I don't think it is appropriate for me to comment on 
that right now, because I wouldn't want to say anything that 
would undo--unduly influence that ongoing source selection.
    Mr. Rogers. Mr. Bruno, do you have any comment on this? You 
are not building an engine, but you are going to be buying it.
    Mr. Bruno. I believe the requirements in the RPS activity 
that you are referring to are very clear from the government.
    Mr. Rogers. Are they fair and reasonable?
    Mr. Bruno. Yes.
    Mr. Rogers. Great. A couple of cleanup questions. This is 
for Ms. Van Kleeck. Your history is partnering with launch 
service providers or being a launch service prime when 
developing a new engine. Why do you believe that this approach 
is not appropriate in this situation?
    Ms. Van Kleeck. I think the issue at hand that we are 
talking about is replacing an engine. And right now we are 
looking at an acquisition process that is looking at replacing 
a service or looking at an evolution of that service. I believe 
with that acquisition you can get to an engine through that 
process, but it isn't the most efficient way to do that.
    Mr. Rogers. Okay. And then finally, Mr. Bruno. As ULA moves 
forward with a new Vulcan launch vehicle, can you tell the 
committee if you intend to mitigate your risk by carrying 
forward both the AR1 and BE-4 as design options? If not, why 
not? And if yes, when will you be able to require--be able to 
down select a new single option?
    Mr. Bruno. I will not carry them all the way until 
completion. We will carry both until it is clear that the major 
technical risk with either path has been retired and we are in 
a position to make a down selection based on their technical 
feasibility, their schedule, and their forecast of recurring 
cost. I expect that to happen at the end of 2016. The reason we 
will down select and not carry both forward is simply because I 
cannot afford to carry both all the way.
    Mr. Rogers. Great. Thank you very much.
    The ranking member is recognized for any additional 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    There are 5 areas I would like to pursue. Some are just 
context and peripheral, but I think it is going to be important 
for this committee to understand.
    In the Air Force RPS, is there a prediction in the out-
years of payload size? Because I think the assumption is they 
are going to get--stay about the same size as they are today, 
some large and some small. There is some trends--if we're going 
to Mars, probably need to be on the big side. If we are going 
to do CUBESATs [miniaturized satellites], maybe we don't need 
the lift capability. So all this talk about launch systems and 
lift capacity, the question is, what are we lifting? And as 
electronics get smaller and smaller, it could be that lighter 
lift capacity is sufficient to do the job. I don't know the 
answer to that question. Anybody have any answers on this 
panel?
    Mr. Bruno. The standard reference for technical performance 
remains what the Air Force calls the 8 reference missions. And 
so they provide us with a set of orbits and payload weight to 
be lifted to that orbit. Those have not changed as of this 
date. The most challenging of those orbits require our complete 
capability all the way to the Atlas V with its 5 strap-ons and 
its largest payload fairing.
    Mr. Cooper. Part of it is orbit, part of it is weight?
    Mr. Bruno. Yes. And it is probably important to understand 
the subtlety within that as well, which is the time required in 
space to reach the highest orbits, and that dictates some of 
the technical characteristics of the upper stage. So when we go 
to, for example, geosynchronous orbit, if you wish to directly 
inject, which the government generally does to preserve the 
life of the satellite, it takes 8 hours flying in space 
operating in upper stage in order to circularize that orbit, 
something not possible with conventional fuels like kerosene, 
for example, without elaborate systems to keep them from simply 
freezing up.
    Mr. Cooper. Yeah. We haven't given much attention at all to 
the second-stage problems. And what you point out are very, 
very important. On the intellectual property issue, it is the 
greatest source of wealth on the planet, but we have increasing 
difficulty understanding ownership and relationships like that. 
I guess it gives us some comfort that an American citizen might 
be owning all this IP, but sometimes citizens move. Sometimes 
they make private sale decisions that could endanger a national 
security. So this is something that we need to figure out 
better. And in terms of payback to the taxpayers, if we could 
get one or two pharmaceutical companies to pay back all the 
benefits of their blockbuster drugs from basic research done at 
NIH, it would return many more than a few billion dollars. So 
perhaps we need to work with our colleagues on other committees 
on that.
    On the question of paperwork, Mr. Bruno mentioned FAR 15, I 
think you called it. And that is a requirement that you have to 
endure, but some others might not. But I am not sure, is all of 
FAR 15 really good paperwork? Is that necessary paperwork? Can 
we streamline FAR 15 so that we can reduce the burden for 
anybody who might have to be subjected to all that paperwork 
burden? It is not the 10 Commandments. It is not written in 
stone.
    Mr. Bruno. The Federal Acquisition Regulations actually 
provide for different models; 15 is one set. There is another 
set referred to as 12, and there are others that do exactly 
that and provide guidance when it is appropriate to use the 
less-elaborate systems.
    Mr. Cooper. So there is some flexibility within that. Is 
FAR 15 the biggest and scariest monster out there?
    Mr. Bruno. Yes.
    Mr. Cooper. But there are lesser monsters? Okay. So you 
just mentioned that to scare us.
    Mr. Bruno. It happens to be the world that we live in at 
ULA.
    Mr. Cooper. A question Mr. Bridenstine mentioned, monopoly. 
Nobody likes monopoly, but I think in the best case situation 
we would have a duopoly or maybe an oligopoly. We need to find 
another billionaire to back Ms. Van Kleeck here. Where is 
Richard Branson when we need him? Or maybe there are others 
with sufficient egos. Because when you correctly said the 
business case isn't very exciting about this. Diminishing 
number of payloads, substantial risk. It takes an investor's 
ego to kind of propel this sort of speculative investment, the 
glory of spacefaring. So I think as we fear a monopoly we 
should bear in mind that even in the best case we are going to 
have an oligopoly, and that is not a whole lot better. We love 
the retail model where we can get Amazon pricing for 
everything. It is not likely to be available here, despite Mr. 
Bezos's involvement. So we don't want to be too idealistic in 
this pursuit.
    And, finally, there is this touchy issue of recruiting 
brilliant personnel. And we in America relied heavily on 
Wernher von Braun and lots of other folks who were imported 
from Germany. And I think the last one just died in the last 
year or so down in Huntsville, Alabama. So, unquestionably, 
there are some brilliant scientists who make a difference.
    I couldn't help but note on the first page of Mr. 
Meyerson's testimony, he has recruited lots of folks from lots 
of places, including someone with Merlin experience. That is 
interesting. It makes me think, regarding the RD-180, that our 
failure is not to have recruited a Russian who actually knew 
how that worked. Where is that person?
    And maybe the Chinese did that when they have integrated 
that into their Long March, or maybe they just stole the 
blueprints. But you kind of wonder, you hope that a team of 
scientists can do great things, and, in many cases, they have. 
But in some cases, at least, there are these brilliant 
individuals who come up with the secret sauce. And that leads 
us to the very interesting feature of SpaceX, where they do not 
rely on the patent system to protect their IP, preferring, 
instead, the trade secret system, which is basically thumbing 
their nose at the entire Western system of protecting 
intellectual property.
    And I am not defending the inefficiencies of the Patent 
Office or--you know. But, this is kind of an interesting 
challenge here. You just keep it locked up in a safe like maybe 
the Coca Cola formula as opposed to publishing and 
disseminating and then protecting legally. So there are many 
challenges we face as we get into this issue to make sure that 
we have assured access to space, that we have a perhaps unique 
national security capability to lift whatever is required on 
the timetable that we need to serve the warfighter, and, yet, 
we are increasingly relying on commercial models, global 
models, international models that may or may not service this 
unique national capability.
    So these are some of the challenges the subcommittee faces 
as we try to come up with some sort of fair solution that, 
above all, puts America first. So that is how I see it.
    If you all publicly or privately have corrections, 
amendments to that, modifications, I would appreciate hearing 
from you, because we are trying to do the right thing and not 
have Congress mess up yet again like we did last year.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    I would note, when Congress messed up last year, it was 
with language the private sector gave us to put in that bill. 
We didn't dream up that language.
    Let's go to the gentleman from Oklahoma, Mr. Bridenstine, 
for any additional questions he may have.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Bruno, you mentioned earlier to close the business 
case, ULA will need to be able to compete in the commercial 
sector for space launch; is that correct?
    Mr. Bruno. Yes.
    Mr. Bridenstine. Mr. Meyerson, does Blue Origin intend to 
also compete in the commercial space launch industry with its 
own system?
    Mr. Meyerson. In the very long term, yes, we do. Our first 
iteration we are working on is our suborbital New Shepard 
vehicle, which we flew last month, and our focus on our rocket 
engines as a merchant supplier to ULA and other companies and 
making those engines available.
    Mr. Bridenstine. So if--and just for you, Mr. Bruno, if 
Blue Origin enters a space, and they are competing directly 
against you in the commercial market, and you are entirely 
dependent on them for your rocket engine, does that pose a risk 
to the costs of government launches?
    Mr. Bruno. In the foreseeable future, I see our activities 
in the marketplace as complementary. And what my colleague Rob 
is referring to is in the far future, when we will have ample 
opportunity to work out arrangements.
    Mr. Bridenstine. If the AR1 engine ultimately is not what 
is down-selected, what is the future for the AR1?
    Ms. Van Kleeck.
    Ms. Van Kleeck. Currently, the AR1 is relevant to this 
particular change in launch vehicles in this particular point 
in time. We don't re-engine launch vehicles. You know, but 
every 10 years we have different opportunities to do that. We 
would maintain the technology. We would probably put it at a 
technology level. But if there isn't a launch vehicle provider 
that will use it, the development will not be completed at this 
point in time.
    Mr. Bridenstine. Is there a chance that that launch vehicle 
provider might materialize and the AR1 would find itself 
relevant in both commercial and the EELV program?
    Ms. Van Kleeck. It is possible. There are--it clearly 
depends on what some of the launch vehicle providers, what 
their paths going forward are. But, as you know, there are 
multiple providers here on this panel, and we have talked about 
a limited market. So in the near term, it is not a high 
probability.
    Mr. Bridenstine. One of the--one of the challenges we have 
is--certainly, it seems like there are two different directions 
that the panel is trying to accommodate. One direction is the 
Air Force's position, which is we need to purchase launch as a 
service. And, of course, that has been the going mindset for 
everyone for quite a while. Then we ended up in this position 
where the Russians got aggressive. And, boy, I will tell you, I 
share Chairman Rogers' position. We don't want to send one more 
dollar to Russia that we don't absolutely have to send to them. 
And certainly I agree with Chairman Rogers that we need to do 
everything possible to mitigate the risk to our own assured 
access to space. That is kind of what drove us to this position 
today where we have got language in the NDAA that ultimately 
might not be compatible with language that says, we need to 
purchase launch as a service.
    So this is a challenge we are going to continue to have. 
Unfortunately, the panelists today find themselves in a 
challenge where they are trying to basically go two different 
directions at the same time, given what has happened in the 
world. And, of course, we as Congress, need to figure out a way 
to make this the best for our country, the best for the 
taxpayers, the best in the national security interest of the 
United States. I know Chairman Rogers has that in his heart. 
The goal here is to get off any Russian engines and to make 
sure we have assured access to space. And we have got to make 
that happen. And I just appreciate you guys being here and 
working through this with us as we try to make it happen for 
our country.
    Thank you guys very much.
    Mr. Rogers. I thank the gentleman. And I concur with that 
completely.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for any additional questions he may have.
    Mr. Coffman. Mr. Chairman, I have one question.
    Mr. Meyerson from Blue Origin and Mr. Thornburg from 
SpaceX, has a large methane rocket engine ever been built and 
flown in space? And why is this? And what are the advantages 
and the challenges of building this type of engine?
    Mr. Meyerson. By and large, I will say no. Engines that are 
greater than 250,000 pounds in thrust, there has been no large 
methane engine that has been built and flown to space that I 
know of. We have been busily working on the BE-4, and we have 
made some specific design choices to mitigate any risk with 
that development, design choices in our chamber pressure, 
design choices in our injector, and design choices in our 
materials that will give us confidence that we can develop this 
engine by the end of next year, get into testing, and meet the 
Vulcan launch vehicle requirements.
    Mr. Coffman. Mr. Thornburg.
    Mr. Thornburg. To your first question about have we flown a 
large methane rocket engine, no, we have not done that. But the 
one thing I did want to point out is that the one aspect of, as 
you hear a lot about this novel technology in some of the new 
engine power plants that are being discussed today, I wanted to 
point out to the committee that the one common thread across, 
whether it is Raptor, whether it is AR1, or whether it is BE-4, 
is really the ox-rich staged-combustion technology. All three 
engines that the three companies are working on incorporate 
that. And that really does represent the technology coming to 
the table.
    So whether you are trying to replace something with Atlas 
in terms of an AR1, you still have to finish the development of 
ox-rich staged-combustion technology. And it is the same for 
BE-4; it would be the same for a Raptor engine.
    And I wanted to also comment that the talented engineers in 
the United States have been working on these types of 
technologies since the late 1990s. Through programmatic 
investments of the Air Force Research Laboratory and NASA, 
these technologies have been available, but have yet to be 
fully funded and brought to the table until these conversations 
are happening now. So that is kind of where we stand on the 
methane engine development.
    Mr. Coffman. Would anyone else like to comment on that?
    Ms. Van Kleeck. Yes, sir, I would. I agree that the common 
thread through these things is the ox-rich staged technology. 
However, I would say there has been--I mean, we have worked on 
methane as a company, Aerojet Rocketdyne has worked on methane 
since the 1960s, and we have built a number of different 
devices, none of which have flown yet. Methane is probably 
going to be an important technology for Mars missions when you 
are dealing with landers and things like that where you want to 
make your propellant in space.
    In terms of the difference, though, between a methane and a 
kerosene engine for a booster, the ox-rich side is the same, 
but the fuels, kerosene is characterized. The ability to run 
kerosene in an ox-rich environment is also characterized. The 
Russians have perfected this technology over decades.
    I am confident we can also do that with methane, but it is 
going to take time. It took the Russians a long time to get 
where they are. I think we understand what they have done. We 
will be building off of that technology. We have studied that 
technology for 20 years. I believe this can also be done for 
methane, but I think the timeframe is going to be quite a bit 
longer.
    Mr. Coffman. Anyone else comment? Yes.
    Mr. Culbertson. Not about methane, sir, but I would like to 
point out that there are other technologies involved here that 
involve propulsion systems, and they have been mentioned 
several times, and that is the solid rocket motors that 
contribute to our access to space, whether they are strap-ons 
or main stages.
    That is a part of our heritage as a country and Orbital ATK 
is very much involved with that and working with several people 
here on the panel on making sure that that is a part of their 
systems. Any system going forward is going to have to have 
either newly developed or perfected solid rocket motors as a 
part of it, whether it is the main engine or additional 
propulsion or second stages. And I think that that needs to be 
a part of the discussion too, is how to maintain the lead that 
we have in this country in solid rocket motors and solid rocket 
propellants over the rest of the world to help with national 
defense, as well as our access to space for these big payloads.
    Mr. Coffman. Yes, Mr. Thornburg.
    Mr. Thornburg. Just a comment back on the methane side. I 
think the research and development and the testing that has 
been performed by SpaceX's private investment, as well as 
activities we have been having with Blue Origin, are proving 
out the viability of methane as a fuel, whether it is ox-rich 
or a full-flow staged-combustion cycle.
    I would also like to say that we have been operating 
hydrogen propulsion systems in this country since the dawn of 
the space age. Hydrogen, obviously, offers a lot more 
complexities in the design, et cetera. Methane typically falls 
somewhere between hydrogen and kerosene in terms of handling 
due to the nature of its cryogenic properties.
    But I did want to point out that there has been a lot of 
research and development in methane ongoing in the private 
sector, independent of government investment over the last 
several years.
    Mr. Meyerson. Can I just add one comment to that? We talked 
about methane, but the choice of fuel for the BE-4 is liquefied 
natural gas, which is commercially available methane. It is the 
commodity that you can buy, and the infrastructure in the U.S. 
is growing rapidly in the last decade. So we have chosen LNG 
because it is cheap. It is four times cheaper than kerosene, 
RP-1, the rocket propellant grade. It is available, and it is 
clean. So it supports reusability applications, which we are 
interested in, in the long term. And those are very important 
points that I want to add.
    Mr. Coffman. Thank you, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Thornburg, I would like to drill down just a little bit 
more on a line of questions I was pursuing earlier to hopefully 
get a little more clarity. In response to a question for the 
record from the last hearing, General Hyten stated that, quote, 
``SpaceX has not formally submitted the changes desired to be 
accepted under certification for the full thrust system to the 
Air Force,'' unquote.
    If SpaceX hasn't formally submitted the changes, then how 
is it that your system should be certified for launch or 
eligible for competition on EELV?
    Mr. Thornburg. Sir, I would have to get back to you on the 
specifics of what has been transferred. But I can tell you that 
to my knowledge presently, since the last hearing, there have 
been numerous conversations between the Air Force and SpaceX 
specifically to address this information. I believe the bulk of 
all that has been provided and is being discussed between the 
Air Force and SpaceX. But I am happy to take that and provide 
it back for the record.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mr. Lamborn. Well, that doesn't really satisfy me. Let me 
approach this from a little different angle. And I am going to 
refer to an article from March 17 of this year, Aviation Week 
article entitled ``SpaceX Sees U.S. Air Force Certification of 
Falcon 9 By Midsummer.'' Okay. And here is a quote out of that 
article. And it is a lengthy quote, so bear with me a minute.
    ``This year, SpaceX expects to debut another Falcon 9 
upgrade, one that will see at least a 15 percent increase in 
thrust for the Falcon 9's Merlin 1D core-stage engines and a 10 
percent increase in the upper stage tank volume. NASA has said 
such an increase in thrust is likely to require significant 
design modifications to the engine and rocket, which could 
necessitate additional certification work, including a series 
of successful flights to prove the vehicle.''
    So how is it that NASA can say that these are significant 
modifications and that they require additional certification 
and possibly test flights, and yet you don't seem to think that 
there is a need for more certification?
    Mr. Thornburg. The language you use, no need for more 
certification, just to clarify, I guess my comments earlier 
were mainly with regards to resetting the clock on 
certification. There has been ongoing certification work to 
upgrades of launch vehicles long before SpaceX was in 
existence. So my comments there were mainly focused on the fact 
that SpaceX is not doing anything different than ULA has done 
over the years with Atlas and Delta in terms of bringing on new 
improvements to systems that improve performance and costs.
    I can also say that we are working very closely with NASA 
and the Air Force, who have both certified us for their 
launches, for their own payloads this year, and we have ongoing 
conversations with them with regards to the status of the 
vehicle. They are fully read into all of the changes, all of 
the modifications that are planned and are ongoing, and are 
fully supportive of what we are doing in terms of gaining the 
certification for upcoming launches.
    Mr. Lamborn. Okay. Well, let me change gears and ask my 
last question. You stated in your opening statement that there 
should be a 50-50 investment in a new engine. Did SpaceX follow 
that guideline for Falcon 9 investment?
    Mr. Thornburg. With Falcon 9 investment, SpaceX 100 percent 
invested in development of that launch of that vehicle. So, 
yes.
    Mr. Lamborn. You said 100 percent. It is my understanding 
that the bulk of SpaceX's capital is actually forward-funded 
NASA contracts totaling around $3.5 billion. Is that correct?
    Mr. Thornburg. I can't speak to the total. But if you are 
referring to the COTS [Commercial Orbital Transportation 
Services] program itself, the NASA money under the COTS program 
to supply the space station was focused on the Dragon space 
capsule versus the Falcon 9 launch vehicle, which SpaceX funded 
the development of.
    Mr. Lamborn. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rogers. Thank you.
    Really, I appreciate all of you all.
    Mr. Thornburg, you made a great point when you emphasized 
we got ourselves into this situation, and the ranking member 
did, when the U.S. stopped investing heavily enough in this 
technology and developing where we need to be and where we 
should have been before now. But our full attention is focused 
on the matter now, and we appreciate you being here.
    I would remind all the witnesses, we are going to keep the 
record open for at least 10 days in case any members have any 
additional questions they would like to ask you to respond to 
for the record, and I would appreciate a timely response to 
those.
    We are about to have another panel of government witnesses. 
I very much hope you will listen to them and let us know what 
you think about what they say, because it will continue to help 
us as we continue to grow and develop in trying to move this 
policy in the right direction.
    And with that, we stand in recess for this panel to adjourn 
and then bring the new panel in.
    [Recess.]
    Mr. Rogers. I would now like to welcome the experts for our 
second panel. I want to thank you all for coming here today and 
preparing for it. We have the Honorable Katrina McFarland, 
Assistant Secretary of Defense for Acquisition; General John 
Hyten, Commander, Air Force Space Command.
    And, General Hyten and Ms. McFarland, it is great to have 
you back to testify on this topic. We truly appreciate your 
opinions.
    And we also look forward to hearing from Lieutenant General 
Sam Greaves, Commander, Air Force Space and Missile Command 
Center. And we also have Dr. Mike Griffin, who is representing 
himself today, but he was deputy chair of the SecDef's 
[Secretary of Defense's] RD-180 Availability Risk Mitigation 
Study, and he is also a former NASA Administrator.
    Ms. McFarland, I will turn it over to you to start with. 
You are recognized for 5 minutes to summarize your opening 
statement.
    I will tell all the witnesses, your opening statements in 
full will be submitted for the record. If you would just like 
to summarize with your time, we will get right to questions.
    Ms. McFarland.

STATEMENT OF HON. KATRINA G. McFARLAND, ASSISTANT SECRETARY OF 
         DEFENSE FOR ACQUISITION, DEPARTMENT OF DEFENSE

    Secretary McFarland. Thank you, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of the committee. I 
appreciate the opportunity to speak and appear before this 
committee, particularly since you are supposed to be at recess. 
And I ask that my written testimony, as you state, be taken for 
the record.
    Mr. Rogers. Without objection, so ordered.
    Secretary McFarland. Thank you.
    Assured access to space continues to be critical to our 
defense space capabilities and national security, especially as 
our world has changed over the last decade into a nonpermissive 
environment.
    During our March 17 hearing on assured access to space we 
touched on many topics concerning the Evolved Expendable Launch 
Vehicle program. Amongst those were the Department's plans for 
reintroducing competition on how we procure our launch services 
for national security space, or NSS, satellites and our plan 
for transitioning away from the use of the RD-180 engine, the 
Russian engine, onto domestically sourced propulsions 
capabilities.
    And while I am pleased to state that we are making progress 
on both of these, competition and transition is intrinsically 
and fundamentally intertwined. This interdependency can't be 
ignored. It must be managed. And as you heard with the members 
from before us, it is a complex issue. And with SpaceX Falcon 
9v1.1 launch system now certified for NSS launches, we have for 
the first time since ULA's joint venture formation enabled 
competition for NSS launch contract services.
    However, section 1608 of the fiscal year 2015 NDAA 
prohibits any use beyond the Block 1 contract with ULA for our 
most cost-effective launch capability, ULA Atlas V, which 
relies on that Russian RD-180 engine. As enacted, section 1608 
creates a multiyear gap without at least two price-competitive 
launch providers and trades ULA for SpaceX as the sole 
providers on medium and some intermediate NSS launches. It also 
impacts ULA's viability to compete in the future, as discussed, 
as an estimate to replace and certify this capability is 
optimistically about 7 years. And, yes, I am a recovering 
engineer, and it is a complex issue, sir.
    To avoid this unacceptable situation, the Department 
submitted Legislative Proposal Number 192 requesting section 
1608 be amended. The Department believes this legislative 
proposal, combined with the addition of the newly certified 
SpaceX Falcon 9v1.1, enables the Department to minimize impacts 
to its assured access to space-based capabilities while 
industry completes its transition using domestically designed 
and produced propulsion systems. The Department greatly 
appreciates this subcommittee's support of the legislative 
proposal and looks forward to working with Congress and the 
defense committees as the fiscal year 2016 budget 
authorizations and appropriation languages are debated.
    The Air Force released a request for information, RFI, you 
have heard some of it earlier, to industry around August 2014 
soliciting feedback on approaches for transitioning away from 
the RD-180. Responses supported the Department's strategy to 
co-invest with industry to transition off the RD-180 and 
provide launch capabilities able to support NSS requirements, 
but markedly broader approaches than anticipated, as you heard.
    As a result of the RFI and in order to comply with the 
commercial space trade transportation services and assured 
access to space mandates, the Air Force developed a four-step 
incremental strategy to fully transition onto domestic 
propulsion capabilities as being discussed. The Department 
remains committed to working with Congress and industry to 
transition off this RD-180 engine in the most efficient, 
expeditious, and affordable manner possible while ensuring 
continued compliance with the assured access to space and 
commercial trade space transportation service laws.
    Again, thank you for your support to our critical missions, 
and I look forward to our discussion.
    [The prepared statement of Secretary McFarland can be found 
in the Appendix on page 128.]
    Mr. Rogers. Thank you, Ms. McFarland.
    General Hyten, you are recognized for 5 minutes.

  STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Hyten. Thank you, Mr. Chairman, Ranking Member 
Cooper, distinguished members of the subcommittee. It is an 
honor to appear before you again to talk about this important 
issue with my distinguished colleagues. Thank you all for your 
continued efforts to work this hard topic, because, as Ms. 
McFarland said, it is a very difficult topic to try to work 
through.
    So I believe everybody has been fortunate enough to witness 
our Nation's evolution in space power, while our combatant 
theater commanders have fully realized how fundamental space-
based effects are to every military operation that takes place 
on the globe today. However, these capabilities are merely an 
illusion without assured access to space. With today's national 
reliance on space capabilities, assured access has gone from 
important to imperative and remains one of our highest 
priorities.
    The launch industry has fundamentally changed over the last 
few decades. The Air Force no longer owns the vehicles we 
launch. We purchase access to space as a service. And industry 
is now investing large amounts of private capital in developing 
new engines and rockets, and we are collaborating closely with 
them to determine how best to invest in public-private 
partnerships and U.S.-made rocket propulsion system.
    So within context of assured access to space, it is 
absolutely critical that we move as fast as we can to eliminate 
reliance on the Russian RD-180 rocket engine. The United States 
should not remain dependent on another nation to assure access 
to space, and we need an American hydrocarbon engine. That will 
be a significant challenge, but we think, with the efforts and 
ingenuity of our government and industry teams, it is possible 
to develop an American engine by 2019.
    However, the engine still has to be made into a rocket. It 
still has to be made into a complete space launch system. And 
even if that system looks similar to the Atlas V, we still need 
to integrate that new engine, test it, certify it, and that is 
going to take another year or two once the engine is developed. 
We do not want to be in a position where significant resources 
have been expended on a rocket engine and no commercial 
provider has built or modified the necessary rocket.
    This subcommittee can be assured of our commitment toward 
competition and a healthy space launch industrial base as we 
move as fast as we can towards U.S.-built rocket engines. Thank 
you for your support. I look forward to continuing in 
partnership, and I look forward to your questions.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 135.]
    Mr. Rogers. Thank you, General Hyten.
    General Greaves, you are recognized for 5 minutes.

  STATEMENT OF LT GEN SAMUEL A. GREAVES, USAF, COMMANDER, AIR 
             FORCE SPACE AND MISSILE SYSTEMS CENTER

    General Greaves. Chairman Rogers, Ranking Member Cooper, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today.
    Space capabilities are essential to the American way of 
life, and they multiply the effectiveness of our warfighters. 
Thanks to the efforts of the men and women of the Space and 
Missile Systems Center, our many contractors, and many mission 
partners, we continue to deliver worldwide precision 
navigation, threat warning, protected strategic and tactical 
communications, and many other capabilities from space.
    As we have all come to know, space launch is a key to 
providing all of that capability. We address the critical 
nature of space launch through a policy of assured access to 
space. Maintaining at least two reliable launch systems is a 
credible method for continued access to space should one suffer 
a grounding event. As part of this approach, we purchase launch 
services on a commercial basis, leveraging America's most 
important source of innovation and national economic strength, 
our free market.
    These two concepts, assured access to space and 
competition, are the cornerstones of our national launch 
policy. They guide our implementation as we execute the 2015 
National Defense Authorization Act, which outlines the use of 
the RD-180 and mandates that we develop a next-generation 
rocket propulsion system.
    In response, I will emphasize that the Air Force is 100 
percent committed to transitioning off of the RD-180 for 
national security space launch as quickly and as prudently as 
possible to a domestically produced liquid- or solids-based 
rocket propulsion system.
    From our perspective, solely replacing the RD-180 with a 
new engine is not the complete solution, since rockets are 
heavily influenced by engine design. Even a drop-in replacement 
which closely matches the RD-180 physical interfaces and 
performance would require modifications to launch vehicle 
structures, the fuel and oxydizer feedlines, and the heat 
shields to accommodate even minor differences in performance.
    As was mentioned by the previous panel, the thrust vector 
control and throttling of the RD-180 engine is a critical 
characteristic of the Atlas V. The new engine's thrust 
vectoring and throttling will require changes to the electronic 
control systems and significant engineering analysis to develop 
new flight profiles to launch the various satellites.
    So, in other words, a rocket engine specifically engineered 
to replace the RD-180 on the Atlas would most likely be usable 
only for ULA's Atlas and not by any other launch service 
provider without significant modifications to the engine and/or 
the launch vehicle. We also do not believe this would meet the 
intent of open competition.
    Additionally, as a product of our market research, we found 
that if we procured an engine not designed for a specific 
launch vehicle, commercial providers would be unlikely to build 
a rocket around it without the government also funding the 
redesign of their launch vehicles, adding time, cost, and risk 
we cannot afford.
    So the Air Force is pursuing a strategy of shared 
investment with industry using public-private partnerships at 
the launch service level. The goal of this plan is to produce 
at least two domestic, commercially viable launch systems, 
including the accompanying liquid-fuel engines or solid rocket 
motors.
    In our research, we assess that industry timelines 
predicting complete rocket propulsion systems by 2019 are 
aggressive. History has consistently shown that developing, 
testing, and maturing an engine takes 6 to 7 years, with 
another year or two beyond that to be able to integrate into 
the launch vehicle.
    Now, with all that said, we are moving fast, very fast on 
this. To execute this plan, we have developed an aggressive 
four-step acquisition strategy to reach this end state as 
quickly as possible. Step one pursues technical maturation and 
risk-reduction efforts, building our expertise within the U.S. 
Step two targets shared investments in rocket propulsion system 
development. Step three guides the transition of our shared 
investments into the provider's launch system. And finally, 
step four directs the acquisition of launch services to meet 
national security space requirements.
    As we move forward, our overall goal is to preserve assured 
access to space by maintaining our laser focus on mission 
success. Our approach will accomplish this by supporting 
competition where it credibly exists and by acquiring space 
launch as a service from certified, commercially viable 
providers using domestically produced rocket propulsion 
systems. If we do this, we will be on a path to transitioning 
off of the RD-180 and having at least two domestically 
produced, commercially viable launch providers that are 
certified to meet national security space requirements by the 
end of fiscal year 2022.
    Thank you for your support in helping us get here, and I 
look forward to your questions.
    [The prepared statement of General Greaves can be found in 
the Appendix on page 143.]
    Mr. Rogers. Thank you, General Greaves.
    Dr. Griffin, you are recognized for 5 minutes.

   STATEMENT OF DR. MICHAEL D. GRIFFIN, DEPUTY CHAIR, RD-180 
               AVAILABILITY RISK MITIGATION STUDY

    Dr. Griffin. Thank you, Mr. Chairman.
    Chairman Rogers, Ranking Member Cooper, and distinguished 
members of the committee, I am honored to be asked to appear 
before your subcommittee to testify on the matter before us 
today. However, before beginning any substantive discussion, I 
think I should note for the record that I am here as an 
independent witness and a private individual. I have received 
no consideration of any kind in connection with the topic of 
today's hearing from anyone. I am here on personal leave and at 
personal expense and do not represent any company, agency, or 
committee on which I have served in the past or presently 
serve.
    So with that said, we are here to discuss the RD-180 and 
its replacement. The RD-180 has been used for two decades on 
various versions of Atlas. And without that engine or a 
functionally equivalent replacement, today's Atlas V launch 
vehicle will be grounded and with it two-thirds of our national 
security payloads as we presently have the manifest.
    And so while I completely agree that we should not continue 
to be dependent upon a foreign power, much less an adversary, 
for any element of our national space launch capability, I do 
believe that the legislative action which has been taken in 
this regard is a bit too abrupt. It might be that we should 
wean ourselves of this dependence a bit more gently.
    But if the Atlas is grounded, then what? Well, U.S. policy 
and law require two independent systems for national security 
space launch capability. This requirement is met, but only 
partially so, with the Delta 4 family. The previous panel said 
that payloads could be shifted from Atlas to Delta 4. That is 
so, but many critical payloads are not immediately 
interchangeable between these vehicles and would require 
considerable rework at considerable cost to shift from Atlas to 
Delta.
    Moreover, the Delta is, in general, more expensive than the 
equivalent Atlas, and the top-end Delta performance of Delta 4 
Medium is less than that of the top-end Atlas. So some Atlas 
payloads will not be transferable to Delta.
    Finally, the Delta production limitations are such that 
without a massive increase in manufacturing and launch 
infrastructure, very limited surge capacity is even possible.
    So the net effect of shifting national security space 
systems from Atlas to Delta, should we have to do so, will be 
several years of delay for the average payload and many 
billions of dollars of increased cost.
    Now, some have said that the best forward path is to 
discard decades of government investment in and experience with 
the Atlas and develop a whole new system. This does nothing to 
solve today's problems. And even if it did, it is irrational to 
suppose that an entirely new launch vehicle can be obtained 
more quickly or at less cost than a new engine alone.
    Others would have us believe that the U.S. Government can 
merely purchase launch services from among multiple competitors 
as if one were selecting a particular airline for a desired 
trip based on airfare and schedule. Purveyors of this launch-
as-a-service view would have us believe that if we have an 
engine supply problem, the U.S. Government should stay on the 
sidelines while the market solves the problem.
    But in reality, the U.S. national security launch 
architecture is a strategic capability having far more in 
common with other strategic assets such as fighters, bombers, 
aircraft carriers, and submarines than it does with airlines 
and cruise ships. The vagaries of the market cannot be allowed 
to determine whether or not critical payloads make it to space.
    Accordingly, the U.S. Government must be prepared to ensure 
that the supply chain required to maintain this critical asset 
remains intact. That supply chain is currently quite fragile, 
because while we have been supporting the Russian rocket engine 
industrial base, our own has withered.
    To conclude, we have an engine problem, not a rocket 
problem. I believe we should solve it by building a government-
funded, government-owned, American equivalent to the RD-180 as 
quickly as we can possible do so. We should not allow the many 
obfuscating issues which have been raised in connection with 
this problem to cloud our view of what must be done.
    Thank you. My full statement, I hope, will be entered for 
the record.
    [The prepared statement of Dr. Griffin can be found in the 
Appendix on page 154.]
    Mr. Rogers. It certainly will.
    Well, listen, before I get into my questions that I 
prepared, you heard the previous panel. Is anybody just 
chomping at the bit to take on something that came out in that 
previous panel that you think the committee needs to hear for 
sure?
    Dr. Griffin.
    Dr. Griffin. Sir, I need to comment on one of the last 
statements of the SpaceX representative, that the development 
of Falcon 9 was done on private funds and that NASA money spent 
went on Dragon.
    I personally am the originator of the COTS program, and 
that program was intended to provide seed money--and I 
emphasize seed money, not majority funding--for the development 
of a new launch vehicle and a delivery system for cargo to 
space station.
    After I left the agency with the inauguration of President 
Obama, considerably more money was supplied to SpaceX. I think 
from public sources it is easily possible to show that SpaceX 
has received about $3.5 billion or so, possibly more, in open 
source funding. Seeing as how they have conducted seven 
launches for NASA, counting the one upcoming this week, that is 
either an extraordinarily high price per launch of about a half 
a billion dollars per launch, which I don't believe is the 
case, or a considerable amount of that money has gone into 
capitalizing the company.
    The money was not segregated out, according to Dragon or 
Falcon 9, so I very strongly believe that the government money 
which has been provided to SpaceX has in fact gone for the 
development of Falcon 9.
    Mr. Rogers. Okay.
    Anybody else? Anything that just jumps out at you?
    You know, you all heard me hope optimistically that more 
than two companies are going to be competing for this engine, 
and I hope that we wind up with three or four or more getting 
into this competition when it really gets going.
    All right. In last year's 2014 space hearing, I asked the 
witnesses if they think developing a competitively acquired 
next-generation engine available to all U.S. providers that 
could effectively replace the RD-180 was important. General 
Shelton, the predecessor of General Hyten, stated, quote, ``I 
would be a strong supporter of that if we can find the money to 
do it,'' close quote. Mr. Gil Clinger, who used to work for Ms. 
McFarland, stated, quote, ``I think in the long run it is in 
the interest of the United States Government to develop a next-
generation rocket, U.S.-produced rocket engine,'' close quote.
    We took their advice and directed the Department to build a 
domestic propulsion system that ends our reliance on the 
engines by 2019, and we provided $220 million just to get 
started.
    But, now, when I read your plan, it is not clear to me that 
we are focused on developing a domestic engine. What has 
changed since that testimony?
    And I would like to ask all the witnesses: In your 
professional judgment, if we have two options--one, to replace 
an engine with a proven technology or, two, to build a new 
engine with an unproven technology, new launch vehicle, and new 
infrastructure--what is the low risk, most expedient, and the 
least cost to the taxpayers?
    Anybody that wants to take it on.
    General Hyten.
    General Hyten. So, Mr. Chairman, I will make two comments, 
and then I will turn it over to my fellow members on the panel.
    So the first comment is that the United States leads the 
world in two elements of the rocket engine business. We lead 
the world in solids, and we lead the world in liquid oxygen/
hydrogen engines. I think we should lead the world in every 
category of engine development. The one we don't lead in is 
hydrocarbon development.
    I believe the United States, no matter what the rest of 
this discussion goes on, the United States should develop a 
technology program that builds hydrocarbon technology for the 
United States across the board. I think it is essential to what 
we do as a country. We have avoided that for about 20 years, 
and we ought to take that on and go forward to that, however 
this turns out.
    The second issue is what has changed. What has changed 
since the last time we talked is we actually have a bill, we 
have a National Defense Authorization Act, that gave us very 
specific guidance. And the guidance said that we need to pursue 
engines that grow to a domestic alternative for national 
security space launches. It tells us they have to be made in 
the United States; I think all the previous panel did that. 
They said they have to meet the requirements of the national 
security space community; I think they did that. Developed not 
later than 2019; that is a challenge, but we heard that. And 
then be developed using full and open competition.
    That full and open competition is exactly the structure we 
put in place. We were specifically told by the law not to go to 
a specific vendor, not to go build a specific engine, but to go 
look at full and open competition across the industry. And when 
you look at the previous panel, the thing that struck me about 
the previous panel that was very impressive is how much they 
had embraced that across the board, from Blue Origin to ULA to 
Aerojet Rocketdyne to Orbital ATK to SpaceX, to embrace that, 
to look at that place.
    So the competition was very important, but when you do full 
and open competition, you have to go through the process to 
make sure it is full and open and fair across industry. That 
does not happen overnight.
    So I would just make those two comments for the record, 
sir.
    Mr. Rogers. General Greaves.
    General Greaves. Mr. Chairman, you asked whether or not we 
should replace the RD-180 with technology. As the previous 
panel did express, we do not have the capability within the 
United States today to replace that engine. So whatever we come 
up with will be a new engine. And the AR1, BE-4, they were both 
mentioned.
    Now, from our point of view, replacing an engine has 
effects on the overall capability that we plan to deliver. So 
we must verify the impacts of any changes to any component in 
the system, especially engine, on the rocket itself and our 
ability to deliver that capability to orbit.
    So, combined with what General Hyten just mentioned, our 
approach is to look at the total capability, the total system, 
that will result from any changes to any component, to include 
the engine. And that is why we start from the launch service 
ultimate capability, assess what the impacts are, and then 
decide whether or not, as you will see through the four-step 
process that we have in place, whether or not any of the 
providers--and, by the way, we did have what we are referencing 
as a broad response from industry to the RPS proposal that we 
put out there that arrived a couple days ago that we are 
assessing right now. So there is interest. But we must look at 
the impacts from any changes to the rocket, to the system, on 
that system.
    Thank you.
    Mr. Rogers. Ms. McFarland.
    Secretary McFarland. Chairman, I think it was very clear 
that one thing came out from each of the previous industry 
comments: There isn't a drop-in replacement for an RD-180 on 
the table. Form, fit, and function, maybe, but not a drop-in 
exact replacement.
    So really what we are focused on is risks. How do we 
leverage our funds and risks? Is it going to be leveraging 
funds from the government and the risk is to the government and 
we pass that risk back to industry? Or do we take and work 
together with industry and funding and share the risks? I call 
it the ``pay me now or pay me later.''
    Each of these industries have already stated there is a 
limited industrial base for commercialization immediately. I 
shared with you earlier the Satellite Industry Association 
study that says there is a modest growth, somewhere between 4 
and 9 percent. They, in commercial world, don't use the size as 
you are familiar with that we have for payloads.
    So we carry, no matter what, an underwriting of whatever 
comes out of here. And because we don't have the IP to the RD-
180 and we haven't developed, as has been stated repeatedly 
here, the engineering expertise that understands the metallurgy 
and necessarily the methodology to do the propulsions in exact 
form, we have to assess that we are going to have some modicum 
of risk.
    The Air Force proposal, as it stands, and with their RFP, 
are pursuing getting the government and industry smart together 
to the point where they can make a logical decision to the next 
step. Can we purvey going forward with a launch system? Shall 
we look at just propulsion system? Shall we look at just 
engine? And what is the most cost-effective and, by the way, 
timely--we are racing against time--proposal?
    The advancements from industry is reassuring. The question 
is now where do we place that risk and how can we afford it. 
Particularly, as I mentioned to you also earlier and with the 
ranking member, we are concerned with sequestration right in 
the midst of trying to rush to moving forward on this 
replacement. It hits us right at our weakest joint, fiscal year 
2016.
    Mr. Rogers. You heard the witnesses in the previous panel 
talk about the degree of modifications that would be required 
to take one of the new proposed rocket engines and put it on 
the rocket itself. And they didn't disagree with the numbers I 
have heard from you earlier, General Hyten, of $200 million for 
not just the rocket but all the infrastructure changes, and 
that was the floor.
    Do you still believe that is at a minimum what we are going 
to be looking at, no matter which alternative we select?
    General Hyten. Mr. Chairman, I won't disagree with what Mr. 
Bruno said--what his numbers are. The numbers I shared with you 
are the numbers I heard from Mr. Bruno.
    We will know more as we actually get into the contract 
activities with them. General Greaves will be going down that 
path with him directly. But I think those are ballpark numbers 
that are fair to look at. But they are not tens of millions of 
dollars. I think $200 million is the floor.
    Mr. Rogers. Is the floor.
    One big change from the last assured access hearing to this 
hearing that has been striking to me is the idea of hitting 
2019 for completion of testing and providing your system for 
Air Force certification seemed ambitious but realistic. Now, 
you have heard from the previous panel, with high degrees of 
confidence, they believe they are going to have not only 
completed testing of their systems but have completed 
certification easily by 2019.
    General Greaves, you seem to have some real concerns about 
that. Do you think that is just optimism or silly?
    General Greaves. Sir, I believe they are discussing 
certification of the engine. When we talk certification, we are 
talking certification of the system. So the engine, plus 
everything--any modification to the engine brings with it 
software, structures, loads, flight dynamics, processing, 
manufacturing. And that is what we refer to as certification.
    So I do believe it is aggressive, but, then, that is only 
part of the answer.
    Mr. Rogers. So you just created a new question for the 
record for all of our industry panelists, is we are going to 
find out if they were talking about--what certification 
process.
    General Hyten. So, Mr. Chairman?
    Mr. Rogers. Yes, General Hyten.
    General Hyten. I was listening real close, and the BE-4 
answer from Blue Origin, the quote was ``ready to integrate and 
fly in 2019,'' and the Aerojet Rocketdyne was ``certification 
of the engine in 2019.''
    So I think that is a great question for the record, but I 
was listening very close to that, as well, to hear what they 
said about certification.
    Mr. Rogers. Yeah.
    Dr. Griffin. May I add a comment, Mr. Chairman?
    Mr. Rogers. Dr. Griffin, yes, I would love to hear your 
thoughts on this.
    Dr. Griffin. I first want to say that I very strongly agree 
with General Hyten that large hydrocarbon engine technology is 
one which we let go at our peril, our national peril. I would 
point out we have never actually agreed not to have it. We just 
did a make-or-buy decision back in 1995, and we decided to buy 
it. That option doesn't look so smart right now, and so I think 
we need to relearn how to make it. I am not interested in 
replicating RD-180 technology; I am interested in going beyond 
it. And that is what I believe we will and should do.
    Secondly, I believe that there is considerable self-
interest on the part of a number of different parties in 
estimating the difficulty of integrating a new engine on a 
launch vehicle. I don't think it is a $10 million problem, but 
I am not sure that I agree that it is a multi-hundred-million-
dollar problem.
    I actually compiled an incomplete list of 14 different 
engines which have been used on a plethora of different launch 
vehicles and stages and 8 different rocket engine stages which 
have been re-engined over the course of, you know, 50-some 
years of American space history. I would be happy to submit 
that for the record.
    But I simply--the history of this matter does not show it 
to be so horribly difficult to re-engine a vehicle, as some of 
our earlier witnesses were saying. I just----
    Mr. Rogers. And if you would submit that for the record, I 
would appreciate it.
    Dr. Griffin. I will submit that for the record. I just 
simply don't believe it to be so difficult.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mr. Rogers. Before I go to the ranking member, General 
Hyten, I want to go back to the specific language you wrote 
down that Blue Origin and Aerojet offered.
    When Blue Origin said they would be ready to fly by 2019, 
how did you interpret that? Did that mean they had completed 
the certification process?
    General Hyten. For their engine. I interpreted that as the 
engine would be ready for us to start into a certification 
flight test program in 2019.
    The certification flight test program takes a year or two, 
usually about 2 years, to go through from a very first flight 
of an engine. So that was interesting to me because----
    Mr. Rogers. And what does the Aerojet language mean to you?
    General Hyten. What the Aerojet language means to me was a 
similar thing, except they said by the end of 2019 the engine 
would be ready. And they didn't say ready to fly on a rocket; 
they said it would be ready by the end of 2019.
    Mr. Rogers. Which you interpreted as meaning having 
completed the certification process?
    General Hyten. The engine, not the system.
    Mr. Rogers. So, in either case, you are talking about just 
the engine, not the system.
    General Hyten. And that is what I heard from both of them. 
I heard the engine would be ready in 2019 at best.
    But I think it is important to point out that both of those 
technologies have significant challenges that they are going to 
have to work through. Now, I believe that industry on both 
sides, especially on the competitive environment, can 
aggressively pursue those and get through those.
    But methane, as I think a number of the members of 
committee talked about, is a new endeavor when you get above 
250,000 pounds of thrust. And this lox-rich [liquid oxygen-
rich] staged combustion across the board has not been done yet. 
So there are still technical risks to pursue in either activity 
that we need to remember.
    Mr. Rogers. Great. Thank you.
    The ranking member is recognized for any questions that he 
may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I am a budget hawk, and I hate to bring up the issue of 
sequestration, but that probably is, as Ms. McFarland pointed 
out, the most important issue we face, not only for this issue 
but for all the military issues. And this committee has ducked 
it yet again.
    So, to put a fine point on it, under this NDAA, we will be 
borrowing $30 billion, we say from the OCO [overseas 
contingency operations] account, but it is not budgeted; 
increase the deficit. We will probably be borrowing it from 
China. And yet none of us has thought of or proposed, oh, we 
would buy the Long March missile from China to meet our gap. 
But we are taking the money from them. But we wouldn't consider 
buying their missile based on RD-180 technology.
    So I hope the members of this committee and of this 
Congress will solve the sequestration problem, something that 
repeated Congresses have failed to do, which dramatically 
injures our national defense capability. So that is the big 
issue. So, within that giant issue, we are focusing on this.
    I need to ask the witnesses and the chairman this question. 
General Greaves indicated there has been broad interest in the 
latest RFP. Great. But that is for more than re-engining. So I 
am interested to find out and get clarity in this hearing 
whether the chairman would be interested in a new RFP just for 
a new engine. Are we buying missile systems, or are we buying 
new engines?
    General Greaves.
    General Greaves. Congressman Cooper, the broad response 
from industry includes initial proposals from both engine 
providers as well as launch service providers. So we are 
assessing that combination as we speak. We received it 3 days 
ago. We are on a timeline to select the best and get detailed 
proposals from the remainder.
    Mr. Cooper. But any new RFP would delay the whole process--
--
    General Greaves. Yes, sir.
    Mr. Cooper [continuing]. Terribly.
    General Greaves. But we believe that----
    Mr. Cooper. And you have already expressed, or at least 
General Hyten has, extreme skepticism about the possibility of 
getting a certified engine replacement by 2019.
    General Greaves. Yes, sir. We believe a new RFP would delay 
the process. But we also believe that the current process we 
have, the RPS we had, encompasses both opportunities for inputs 
from engine providers and launch service providers themselves. 
So, within that sum total of inputs we have today, we believe 
it is highly likely we will find a way through this.
    Mr. Rogers. And I would respond to the ranking member's 
question with last year's NDAA specific language on this.
    ``The agreement includes the House provision with an 
amendment that would direct the Secretary of Defense to develop 
a rocket propulsion system that is made in the United States, 
is developed no later than 2019 using full and open 
competition, meets the requirements of the national security 
space community, and is available for purchase by all space 
launch providers of the United States.''
    We note that this provision is, quote, ``not an 
authorization for funds for development of a new launch 
vehicle,'' period.
    And I will submit that for the record.
    [The information referred to can be found in the Appendix 
on page 163.]
    Mr. Cooper. But this Congress, this committee, can say 
2019. That doesn't mean it is going to happen. And we have 
heard from our Air Force experts extreme skepticism that that 
could happen.
    General Hyten. Well, you may have heard skepticism, but I 
hope you also heard optimism. Because when you get into a 
competitive environment and you actually engage the best 
scientists and engineers that we have, I think it is possible 
to get there in 2019.
    The skepticism that I think you are referring to is talking 
about the significant technical challenges in a couple of 
areas. And then we also have the thrust vector control issue 
that was talked about by the previous committee, too, that we 
have to work through. We are not going to go down that 
technology path. I think in the long term that would be a good 
technology program for the United States to go down, as well.
    Mr. Cooper. Well, we keep on using this word 
``competition,'' at least from the previous panel. There are 
really only two competitors, if you get down to it. You know, 
there is the ULA group, and then there is SpaceX. And Orbital 
wants to get in, maybe, sometime. But this isn't retail 
environment. There are not lots of folks vying for this lumpy 
business.
    Now, there are more folks interested in commercial, but 
that is not what we are talking about here. You know, this 
basically, at least due to market interest, is not an 
interesting business space unless you are a multibillionaire 
with a big ego.
    And, by the way, the missing billionaire for the 
hydrocarbon engine? Maybe we could find a Texas oilman who 
would be interested in funding a hydrocarbon research platform. 
Because Dr. Griffin is probably right; we need world-class 
research in this area. Well, where has it been for decades? You 
know, we haven't had the backing for it somehow. So we are in 
this fix right now.
    Dr. Griffin. We were buying it from Russia because it was, 
in Ms. McFarland's earlier words, pay me now or pay me later. 
And we chose to take the route of buying a relatively 
inexpensive recurring engine rather than preserving our own 
industrial base. At this point, that does not look like it was 
the smart alternative then, and I would suggest that we do not 
repeat it.
    Mr. Cooper. Well, I don't want to put words in your mouth, 
Dr. Griffin, but there are some advantages sometimes to big 
government. And you proposed a government-funded and 
government-owned solution. Many of my colleagues across the 
aisle call that big government, and they resist that. They want 
to turn over virtually everything to the private sector.
    Dr. Griffin. Well, sir, I am a free-market conservative. 
And if I thought that the market were such as to supply this 
item, as it does for airline transportation or computers, then 
I would want the government to buy it off the market.
    My observation is that--well, I will just put it like this: 
Last year, ULA conducted one commercial launch and something 
like a dozen national security or other government launches. 
That is the ratio here of free market to national requirements.
    So I am urging the committee to consider regarding this 
item as a national security item first, with some possibility 
of dual use.
    But for the national security side, if we believe it to be 
so, then we must ensure our supply chain. And that is 
everything from thrust vector control systems and guidance 
systems to ground infrastructure to airframes to engines. We 
must ensure that, cradle to grave, we in the national security 
community have taken care that we can get every item we need.
    Mr. Cooper. I like your argument, because we do need 
assured access to space. I think you went a little bit too far 
if you used the ULA ratio last year as the appropriate mix. It 
could be that ULA is the higher-cost provider for commercial, 
and that is why so much of the business has been taken by 
SpaceX.
    But, regardless of that, there are certain needs that only 
the government can perform, and we should step up and do that 
and fully pay for those, unlike we are doing with our overall 
defense budget. Because we are still relying on sequestration 
and borrowing the money, essentially from the Chinese. So we 
have to get real about this, and this committee has failed in 
that regard.
    I am a little worried about the aspect of the Air Force 
demanding, you know, competition and performance and everything 
like that, and then you are the gatekeeper. So you could slow-
walk or prevent an otherwise-qualified vendor from achieving 
success. This assumed horizon of 6 to 7 years is worrisome 
because we won World War II in that timeframe, but now 
everything is slower in the modern age.
    So I am a little bit worried, and we saw this a little bit 
with the last SpaceX certification. It was 6 months, at least, 
longer than expected. And I want to make sure all the i's are 
dotted and t's are crossed, but sometimes we are not quite sure 
where it is lost in the bureaucracy.
    General Greaves.
    General Greaves. Congressman Cooper, just let me restate 
that we are 100 percent focused on expediting our transition 
off the RD-180, as well as ensuring that we have a level 
playing field between all applicants for that work effort. And 
we have not, to date, excluded any of the proposed options, to 
include solids.
    We have the four-step process, which will drive us to a 
conclusion expeditiously. And we do have the opportunity, if we 
find that for one or more reasons that one or more of the 
proposals that we are reviewing now will not close from a 
business-case perspective, won't meet requirements, someone 
can't meet what we need, to essentially go back to step one, 
which is the technical maturation activity, to pursue an engine 
development if needed.
    Mr. Cooper. See, that sounds like such a great answer. And 
you said ``expeditiously,'' and that sounds great. But the 
definition of ``expeditiously'' in the modern age is 6 to 7 
years.
    General Greaves. Sir, I am talking for step two, which is 
the RFP that we are currently assessing, awards between 
September and December of this year. It is a two-step process. 
Does the set of initial proposals that we have now even meet or 
not meet the requirement? Narrowing it down and moving on.
    Because, as you heard from the previous panel, sir, these 
providers have been working on this issue for quite some time 
on their own, and we do not believe it will take an exorbitant 
amount of time to get to a decision.
    Mr. Cooper. Well, we all hope it won't be an exorbitant 
amount of time, but, you know, we heard the FAR 15 problems, 
and no one has ever proposed to us reforming FAR 15.
    Ms. McFarland.
    Secretary McFarland. If I could, I think that was one of 
the things that is underlying your question. What the Air Force 
used was an other-than transaction. They aren't using FAR 15. 
That is similar to what you see in DARPA [Defense Advanced 
Research Projects Agency], I am sure. That is a very important 
tool that they are using to expedite not only the speed but the 
innovation. It is not as proscriptive as we discussed in that 
earlier one.
    Mr. Cooper. So it is not as scary as FAR 15, the big 
monster, but this is a little monster.
    Secretary McFarland. This is like boo-boo.
    Mr. Cooper. Well, I am sure they will be comforted by that.
    Essential question of fact here. SpaceX testifies that they 
can handle 60 percent of national security loads--60 percent. 
Okay. Ms. McFarland, in her testimony, said that they can do 
four of eight, which sounds like 50 percent. And then Dr. 
Griffin, in his testimony, said two-thirds of the payloads 
would be grounded. You know, so what is it?
    Dr. Griffin. Well, I will answer first.
    I was privileged to be asked to serve on the Mitchell 
Committee last year as deputy chair to look at RD-180 
alternatives, and we surveyed the manifest at that time. And 
two-thirds of the individual flights in the manifest were on 
Atlas V, one version of it or another. That is just a fact.
    When SpaceX talks about ``can lift 60 percent of the 
payloads,'' I am not arguing that that is not the case, but 
many of those payloads will be repeat versions of the same 
thing. It doesn't mean that they can lift 60 percent of all 
possible spacecraft that the national security community has to 
be launched.
    Mr. Cooper. Uh-huh.
    Do we have the legal ability here to force the continuation 
of the Delta Medium? Because that is what SpaceX claims would 
eliminate any gap even today.
    Dr. Griffin. Sir, I am not a lawyer.
    Mr. Cooper. Uh-huh.
    General Greaves, you are a lawyer, aren't you?
    General Greaves. Yes, sir.
    I believe the entire discussion of the Delta IV revolves 
around the ability of United Launch Alliance to remain 
competitive with something like a Falcon 9. And, as Mr. Bruno 
mentioned before, they are asking for the time to transition 
between where we are today and whatever their new system, the 
new--the Vulcan is. And, to do that, they need a steady stream 
of revenue to maintain the capability to get there.
    So, from what they have briefed us, they have briefed me, 
if the Delta IV was forced to compete with the Falcon 9, it 
would not be cost-competitive and most likely would not win. 
So, without that--and Mr. Bruno mentioned it in the previous 
hearing--without that assurance of that steady stream of 
revenue, it would be hard to receive the capital investment 
they need to make that transition.
    So it is not, in our opinion, a matter of whether or not 
the Delta IV can meet our requirements or we can force them to 
stay. I believe it is a matter of whether or not ULA can remain 
in business during the transition with the Delta IV as the 
competitive item.
    Mr. Cooper. So we could make it happen if we paid them to 
make it happen.
    General Greaves. Yes, sir.
    Mr. Cooper. Okay.
    Final point would be this. I am worried overall that the 
short tenure of generalships does not meet these multiyear 
national security capabilities. Because so many of the 
personnel and leaders of these companies are retired Air Force, 
and, you know, when we have 3-year, 4-year tours of duties--and 
I am not impugning anyone's integrity. It just seems like, when 
we have a 20-year or 30-year time horizon on some of these 
things and we are rotating in and out personnel, success is 
sometimes defined as punching your ticket on your command. And, 
if that is sufficient, you know, that--because we are on the 
receiving end of a 20-year problem here, and I wonder where 
those folks are.
    General Hyten. So I understand the argument, Congressman. I 
really do. And it may be an anomaly, but I will just point out 
that I came back into this element of the business in February 
of 2010. And I started coming over here to the Hill in February 
of 2010, working this issue as the space acquisition person 
under the acquisition chain for 2 years, then as the vice 
commander of Space Command, now as the commander of Space 
Command. So I have been in this area, focused on this area for 
over 5 years now.
    And this is essentially important to me, personally, to 
make sure we get this done correctly, because I don't want to 
leave a problem for the people that come after me. Because I 
understand that I have a finite amount of time left in the 
service now, and I want to make sure that we get it right so 
that the folks that come after me don't have to worry about 
this problem.
    Mr. Cooper. Yeah. And you are a good man, and 5 years on a 
problem is a very long time for the Air Force. But that pales 
in comparison to Admiral Rickover's tenure with Navy Nuclear.
    General Hyten. It does, sir. I understand the argument.
    Mr. Cooper. Yeah.
    Thank you, Mr. Chairman.
    Mr. Rogers. And the point the ranking member is making is 
one I completely agree with. It is one of my frustrations in 
this world that is so complex that we have these short tenures 
of really sharp people like you. And it would be awful nice if 
we could make those, instead of 3-year tenures, 6 years or 
thereabouts.
    Anyway, the gentleman from Oklahoma, Mr. Bridenstine, is 
recognized.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Since the issue of the sequester came up, I will take an 
opportunity to share what I think a lot of us on this panel 
worked on very hard. Every year, we reauthorize the Department 
of Defense. Every year, we appropriate funds for the Department 
of Defense. We have done that again this year, and we have 
found a way to unwind the sequester on defense for a year and 
meet the President's budget request.
    Some people would argue that the color of money isn't 
right. I would argue that they are correct. I would also argue 
that the money spends the same way, and the money is all green, 
and what we need to do is unwind this defense sequester 
permanently. But, for now, we have funded the Department of 
Defense at the President's budget request level. That is what 
we have done. And we worked really hard on both sides of the 
aisle to make this happen.
    I would also let people know that, when the President 
threatens to veto defense appropriations or to veto the NDAA 
after we met his budget request, the world is listening to 
that, and it doesn't help the situation at all.
    This is an important issue. We need to unwind the defense 
sequester permanently, and, certainly, I support that. But the 
reality is, every year, we reauthorize the Department of 
Defense. Every year, we appropriate funds for the Department of 
Defense. This meets that same situation.
    My question is, when I heard General Greaves talk about 
technical maturation--that is step one--and risk reduction as 
part of step one, rocket propulsion system investment as step 
two, launch systems investment as step three, this sounds an 
awful lot like the same process that Dr. Griffin went through 
with COTS.
    And my question for you, Dr. Griffin, is, why is it 
inappropriate now but it was appropriate then? Was the COTS 
program unsuccessful? Which--now we have commercial crew and 
commercial resupply; it seems like it is at least working. Why 
is this different?
    Dr. Griffin. Well, a major difference, I think, is in the 
amount of money involved. In the COTS program at NASA--now, 
this is taking us back nearly 10 years--we allocated, as we 
intended, a fairly small amount of money across two providers, 
and the clear terms of the agreements were that there would be 
a very significant majority of corporate investment. That was 
our plan at that time.
    The program did work. We got two new launch vehicles out of 
it, domestic launch vehicles: the Falcon 9 and the Orbital ATK 
Antares.
    I think it is a very different thing for the national 
security launch infrastructure to be told to purchase launch as 
a service, implying that there is an open market of providers 
from which the Department can buy a launch on a marginal cost 
basis, as if it were an airline ticket----
    Mr. Bridenstine. Real quick----
    Dr. Griffin [continuing]. And then, oh, by the way, to be 
told that they have to fund the development of that capability.
    Mr. Bridenstine. Is that not what COTS was? COTS was the 
funding of the development, ultimately, right, that led to----
    Dr. Griffin. A small portion of the development.
    Mr. Bridenstine. So the level of the investment was----
    Dr. Griffin. Money matters. That is exactly right. The 
level of the investment matters a lot. When we established the 
COTS program, we wanted to see a major element of contractor 
skin in the game. We did not want the skin in the game to be 
entirely that of the government. If the government was going to 
fund it as a new development, then we should just do it as a 
prime contract.
    Mr. Bridenstine. Okay.
    I just have a few seconds left. And I just want to 
reiterate the point I made earlier, which is the Department of 
Defense will be fully funded, and the President needs to sign 
that into law.
    And I think it is critically important that we not, you 
know, take risk of, you know, shutting down the Department of 
Defense because the President believes we don't have enough 
money spent on the IRS [Internal Revenue Service] or enough 
money spent on the EPA [Environmental Protection Agency] or the 
National Endowment for the Arts. That is not an appropriate 
thing to do, especially given the threats that we face in the 
world.
    With that, Mr. Chairman, I will yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Coffman from Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    And, General Hyten, everyone appears to be in unanimous 
agreement on two points: first, that competition is good since 
it provides cost savings and resiliency; and, two, that we need 
to eventually transition off the Russian RD-180 engine.
    I am very concerned we haven't rationally thought through 
that process and the timelines. In other areas of national 
defense, we would never consider phasing out a capability until 
we had confidence in a follow-on--for example, F-35 will be 
ready to fight before phasing out the F-16. You know, as a 
combat veteran, I would never advocate for the phase-out of one 
weapon system until I was confident the follow-on system is 
operationally ready to support the mission. In this space 
launch arena, we are anxious to phase out the RD-180 engine 
without full confidence that a robust capability is ready to 
replace it.
    What is the Department doing to ensure there is no gap in 
assured access to space between the time the Atlas and Deltas 
are phased out and the follow-on Vulcan and Falcon Heavy become 
operational?
    General Hyten. So, Congressman, I agree with your overall 
assessment. It is the first rule of wing-walking; you don't let 
go with one hand until you got firm hold of the next hand. And 
I am concerned we are about to let go of one before we have a 
firm hold on the next. So I think it is very important that we 
logically transition off these capabilities.
    I think the efforts that General Greaves and the 
acquisition community have come up with to reach out to 
industry broadly to come up with a competitive strategy that 
looks at that, to use different acquisition authorities to 
allow them to go as fast as the acquisition process will allow 
them to go has been exactly the right thing to do.
    But I still am concerned, is that if he does everything 
exactly according to plan and we get an engine by 2019, we 
still can't let go of the wing. And that is why the Department 
has come back to you and requested the ability to continue to 
have RD-180s for that transition period, whatever that is. And 
I agree with that request.
    Mr. Coffman. General Hyten, if the supply of RD-180s were 
cut to less than 14 engines, what would be the practical 
result?
    General Hyten. There are two possible practical results. 
Practical result number one is that ULA can no longer be 
competitive in a competitive market, and, therefore, they 
decide that they can't compete and we move into another 
monopoly.
    The other is that the government, because of the assured 
access to space requirement, decides that that can't be allowed 
to stand, and, therefore, for the transition period we decide 
to pay the premium and fly the Delta IV at a price point that 
will be significantly higher and pay the difference with the 
taxpayers' dollars.
    Mr. Coffman. Okay.
    General Hyten, what is the Department doing--and, 
Lieutenant General Greaves, you might want to comment on this 
too--what is the Department doing to ensure you are not 
replacing a, quote/unquote, sole source provider with a 
different, quote/unquote, sole source provider?
    General Hyten. Well, I think the whole approach that we are 
taking is to figure out how to develop the rocket propulsion 
system that will be available for the capabilities that we need 
in the future. We are going down that path so we can have that 
new rocket. Whether it is Vulcan with the Atlas V upper stage, 
or whether it is the Atlas first stage with the other pieces, 
we are going down that path.
    And we have a much healthier industrial base now. SpaceX is 
certified for an element of the capabilities now, so we have 
SpaceX that is out there. So we have capabilities out there if 
we can take advantage of all of those systems, and that is what 
our approach is trying to do.
    General Greaves. Congressman Coffman, we initiated this in 
earnest last August with a request for information from 
industry, and we have been working with them very, very 
closely. And the rocket propulsion system effort that is 
ongoing now, step two, as we refer to it, the goal is to, based 
on what we gathered from industry on their capabilities across 
the board, to end up with an initial four potential candidates 
and then whittle it down to two.
    So we are ensuring, based on the capability within the 
Nation, that we will preserve assured access to space.
    Mr. Coffman. Assistant Secretary McFarland, would you like 
to comment further?
    Secretary McFarland. Exactly what the two gentlemen here 
said. The Department's look at this is that: Here we are. We 
have not got the intellectual capital currently inside of our 
government, let alone outside in industry, to do a one-for-one 
replacement. The RFP that is out on the street is to grow that 
knowledge immediately under a special type of an acquisition 
tool, if you would, the OTA [other transaction authority]. It 
has in there logical steps that would say, okay, we can now see 
what is the quickest, clearest, most affordable way to get to 
closure. And, at this time, that is, I think, the most prudent 
approach to doing it.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Lamborn of Colorado for any 
additional questions he may have.
    Mr. Lamborn. Thank you, Chairman.
    And I want to follow through on a question I was asking 
earlier. And if I could just go down the line, starting with 
you, Ms. McFarland. And it has to do with questions I was 
asking to SpaceX.
    If they haven't submitted changes for the upgrade Falcon 9, 
then how can it be said that their system is certified for 
launch or eligible for competition on the EELV?
    Secretary McFarland. Well, post that hearing on March the 
17th, they did come in with a statement of intent and, indeed, 
are working with the Air Force for the heavy launch Falcon 9.
    General Hyten. And the other point I will say, sir, is that 
part of the transition phase of that is moving with the full-
thrust engines on their Merlin capability. Now, that is a very 
similar process to what we went through on the Delta vehicle 
when we went from an RS-68 to the RS-68A. They actually work 
closely with us as they go through that. That is part of the 
normal process that we work with both Atlas and Delta over the 
years. We have done that on the upper stage, as well.
    Once we go through and certify the system, it is basically 
a baseline capability. And then, as industry learns and 
develops new capabilities, they have to come back to us and 
demonstrate their changes they go through. And the lucky part 
is General Greaves is actually the certifier, so he can talk 
about all the details of that. So I will pass it to General 
Greaves.
    General Greaves. Well, Congressman, as General Hyten said, 
the Air Force has designated my position as the certification 
official for new entrants. And, as part of that, in assessing 
space access capability, we are working with them very closely. 
In fact, I co-chair meetings every 2 weeks with the Glenn 
Shotwell/Elon Musk level to assess the current status of what 
they have proposed, any changes that they are envisioning or 
have realized into their system to ensure it becomes certified 
in time.
    So, in the end, we are well aware of proposed changes to 
the Falcon 9 1.1 system as part of the upgrade that was 
discussed in the other panel. Daily, our teams are--our organic 
government team, our FFRDC [Federally Funded Research and 
Development Center] team--are working with SpaceX to fully 
understand what it will take to accept those changes, whatever 
they may be, as a certified system.
    This is no different, sir, than we have done with ULA in 
the past. In fact, last December, when we flew the RL10C, which 
is an upgraded second-stage engine, we went through a 
significant effort with ULA ahead of time to understand the 
changes of that engine, what it would do to the system, and 
then certify it for flight, which we did last December, and it 
flew very successfully for the first time.
    So, today, as we speak, SpaceX has provided what changes 
they envision for the upgraded Falcon 9. We are, daily, in an 
intense effort with them to understand and hopefully certify 
that system.
    Mr. Lamborn. And you mentioned test flights in the case of 
ULA. Will test flights be part of the protocol with SpaceX?
    General Greaves. As a basis, yes, sir. But I will use the 
RL10C as an example. That engine was qualified as part of ULA's 
design and delivery process, and we flew it for the first time 
with an operational mission--it was a classified mission--back 
in December.
    So it depends on the level, degree, amount, impact of the 
changes that we are looking at, to determine whether or not it 
would require a re-flight or test flight. It is no different, 
sir, than what we have done historically with our launch 
providers.
    Mr. Lamborn. And, Dr. Griffin, would you care to comment?
    Dr. Griffin. I would agree with General Greaves with regard 
to certification of new capability. In fact, I would say the 
idea that we fly a large number of repeated copies of rockets 
is something that may look true from the outside, but, 
truthfully, it is rare to go very long in a string without 
upgrading or changing something about the rocket. So you are in 
this continual process of evolution.
    And, certainly, we don't do a non-value-added test flight, 
a whole separate test flight, with no payload merely because we 
go from an RL10B to an RL10C. You just wouldn't want to spend 
that kind of money. On the other hand, when you are fielding an 
entirely new rocket, you will do a couple of test flights, 
typically, before you put a valuable payload on it.
    So there is an informed engineering and program management 
judgment that has to be applied to determine when you are 
willing to risk an upgrade without a test flight and when you 
need a test flight because the upgrade is just so big that you 
don't want to risk the payload.
    Mr. Lamborn. Okay.
    And for a couple of clarifications, Ms. McFarland, some 
people have made unhelpful comments out in the public that the 
money from the sale of the RD-180 engines goes to, quote, 
``Vladimir Putin and his cronies.''
    Can you clarify that, please?
    Secretary McFarland. Congressman, I can't say where the 
money goes. The government buys launch services from ULA. But I 
can state that, on May the 6th of 2014, the U.S. Court of 
Claims received the opinion of the United States Department of 
the Treasury, the United States Department of Commerce, the 
United States Department of State, that the payments to NPO 
Energomash do not directly contravene Executive Order 13661 at 
this time and would inform the court in the case of such 
determination in the future had to be overturned.
    So, from our perspective, we did exactly due diligence on 
this to ensure that those statements were not factual.
    Mr. Lamborn. Well, thank you for your background work and 
for that clarification.
    And, lastly, I would like to clarify with you or possibly 
General Greaves, Reuters reported at one point that the 
contracting approach used by ULA to purchase RD-180 engines via 
RD Amross employed, quote/unquote, ``questionable contracting 
practices.''
    Is that true?
    General Greaves. Congressman, no. It followed the standard 
process where the Air Force procurement contracting officer, 
with advice from such agencies as the DCMA [Defense Contract 
Management Agency], DCAA [Defense Contract Audit Agency], 
examined the contracting approach for both ULA and RD Amross, 
and they did a couple of things.
    They went through and essentially did a price analysis to 
assess whether or not the proposed prices we were paying were 
within historical bounds. They also took a look at, for 
instance, the RS-68, what it cost to produce that engine versus 
what we were paying for the Russian engines.
    And they correlated all this information. And there was 
also a cost study that was done. So, in the end, all the steps 
were taken. The RD-180 was procured on a fixed-price basis. So 
we followed all those rules, and we vehemently dispute the 
accuracy of that information.
    Mr. Lamborn. Okay. Thank you for that clarification.
    Thank you all for being here.
    Thank you, General Hyten and General Greaves, for your 
service to our country.
    Dr. Griffin, Ms. McFarland, thank you for helping our 
country, as well.
    Thank you, Mr. Chairman, for indulging those questions.
    Mr. Rogers. Glad to. I appreciate the questions.
    I mentioned this earlier--I think it was during our first 
panel--that the House version of the NDAA for 2016 in this 
subject matter area and the Senate language is different. So 
this will be a question for all the witnesses.
    Please comment on the impact of the current fiscal year 
2016 NDAA Senate language regarding the prohibition of Russian 
rocket engines. Are nine engines from the 2015 to 2017 
timeframe enough to maintain assured access to space and keep 
competition going? Why does this issue need to be addressed 
now?
    Ms. McFarland.
    Secretary McFarland. No, it does not. We have in block 1-A 
multiple launch, competitive launch opportunities that this 
would not allow us to have two viable competitors for.
    Mr. Rogers. General Hyten.
    General Hyten. And then the follow-on to that is, as we go 
to Phase 2----
    Mr. Rogers. Well, first, do you concur with that?
    General Hyten. I concur with what Ms. McFarland just said. 
And it goes further than that, because my biggest concern is 
really when we get into Phase 2, which is the period between 18 
and 22, where we have approximately 28 launches that we are 
going to manifest. There would be no Atlases available to 
compete for those launches at that time. That brings the whole 
discussion that we had a little while ago about the viability 
of ULA to get through that period--that is an even bigger 
concern for me as we get into Phase 2.
    Mr. Rogers. So I want to make sure that for the record we 
understand. Both Ms. McFarland and General Hyten are saying 
that the nine engines are not enough to maintain assured access 
to space?
    General Hyten. Yes, sir.
    Mr. Rogers. Okay.
    General Greaves, you had something you wanted to say?
    General Greaves. Chairman, I concur entirely. It gets back 
to the entire discussion on whether or not ULA remains 
commercially viable to make the transition between today and 
2022.
    Mr. Rogers. And that is important because?
    General Greaves. Because they need the steady stream of 
revenue to----
    Mr. Rogers. I mean, in the big picture, we need to have two 
people that can----
    General Greaves. Yes, sir. Assured access to space, yes, 
sir.
    Mr. Rogers. So we would be falling down on our overall 
goals of making sure we maintain assured access to space by 
having two providers.
    General Greaves. Yes, sir.
    Dr. Griffin. May I come in on this?
    Mr. Rogers. Dr. Griffin, absolutely.
    Dr. Griffin. The requirement for two providers comes more 
out of, if you will, my era. Back in 1986, we lost in sequence 
a space shuttle, a Titan, an Atlas, and a Delta. And so, by the 
second half of 1986, the United States had no access to space 
capability at all.
    From among the many recovery actions taken following the 
loss of Challenger, it was determined that we would, in the 
expendable vehicle arena, keep two independent paths to space 
at all times for national security purposes. That is now--it is 
Presidential policy for several past administrations, and it is 
law. And I think, although the history is now 30 years old 
almost, I think we depart from that at our peril.
    Mr. Rogers. Great. You know, one of the things you will 
hear from the chairman of the Senate Armed Services Committee 
is: Well, you know, we can just rely on NASA to make sure we 
maintain this assured access to space.
    Do you concur with that interpretation of our circumstance, 
Ms. McFarland?
    Secretary McFarland. Sir, I do not. I am going to be 
visiting with NASA to see what they have in their SLS [Space 
Launch System] vehicle. From what I understand--and I am sure 
General Greaves and Hyten can explain further--it is a very 
costly way to send up an asset given what we have to do for our 
mission manifest.
    Mr. Rogers. Great.
    General Hyten.
    General Hyten. NASA uses Atlas and Delta for most of their 
scientific missions today. They are working down a couple of 
other paths. The Space Launch System, the SLS program, is a 
giant rocket, a giant rocket that is built for interplanetary 
exploration. It is not built to put satellites in low-earth, 
medium-earth, or geosynchronous orbit. So the good news is we 
meet with NASA, the Air Force, and the NRO [National 
Reconnaissance Office] all the time to talk about the 
partnerships. And we have great technology partnerships. But 
they do not have a rocket system that would meet our 
requirements.
    Mr. Rogers. General Greaves.
    General Greaves. Chairman Rogers, I concur with what has 
been said before. One additional note is that my position also 
functions as the flight worthiness certification official for 
every national security space launch. And that set of criteria 
that we use--in fact, I sign letters for every one of them, 
that criteria that we use to certify missions that are ready to 
support national security space, in most cases, are somewhat 
different than what NASA uses because their risk tolerance is, 
in most cases, a little higher than ours because ours are low 
risk. So that would be a difference if we were told to go to 
NASA for these engines.
    Mr. Rogers. Dr. Griffin, you used to run NASA. Do you think 
we ought to be relying on NASA for our assured access to space?
    Dr. Griffin. I don't because, in actuality, as was said 
earlier, NASA relies on the Department of Defense for the 
procurement of Delta and Atlas launch vehicles for its own 
robotic payloads. The larger rocket, the SLS, to which General 
Hyten referred, is intended for human exploration of the solar 
system, which I devoutly hope we will resume. But to use it for 
unmanned national security launches is possibly somewhat 
equivalent to using an aircraft carrier to transport cargo 
across the ocean. It would be a bit of an overkill.
    Mr. Rogers. General Greaves, what is the estimated cost of 
your four-part plan, including all necessary investments in 
engines, launch vehicles, and infrastructure? And what is the 
basis of that estimate?
    General Greaves. Chairman, we do not have a final estimate. 
And a lot of it depends on the assessment that we are doing 
right now. We do have funding in the 2016 PB [President's 
budget] to address step two and step three of the four-step 
process. But we are looking to see what estimates we get. And 
we will work that in in future budgets.
    Mr. Rogers. Great. Dr. Griffin, what are your thoughts on 
the cost of the Air Force's four-part plan versus funding an 
RD-180 replacement for existing launch vehicles and 
infrastructure?
    Dr. Griffin. As General Greaves just said, I can't know yet 
what the cost of the four-part plan will be. I will offer the 
opinion that I believe, I very strongly believe that the 
cheapest way for the United States to regain its national 
security launch independence is to re-engine the Atlas V. I 
said that in my testimony for the record. So I can't prejudice 
the outcome of a procurement process which is ongoing. Even 
though I am not an attorney, I know that. But I do hope that 
the outcome of that procurement process results in a decision 
to re-engine the Atlas V.
    Mr. Rogers. Ms. McFarland, what would it take to off-ramp 
the current Air Force plan to a path that is focused on 
developing an engine that complies with the law and without 
government development of a new launch vehicle?
    Secretary McFarland. I think that would be a good question 
to ask us after we have a chance to review what has been 
proposed from the Air Force's current solicitation. I think 
that would be a good question for the record. And I think that 
would be good product.
    Mr. Rogers. Great. General Greaves, you stated in your 
testimony that, quote, ``a rocket engine specifically 
engineered to replace the RD-180 on the Atlas would most likely 
be usable only for ULA's Atlas,'' closed quote. However, 
according to press reports, Orbital ATK wanted the RD-180 so 
much, they sued ULA to get access to it. That suit was settled 
out of court. And Orbital went up with another Russian engine. 
But isn't it reasonable to conclude that the RD-180 would be 
flying on an Atlas and Antares today if Orbital had access to 
the RD-180?
    General Greaves. Chairman, the answer is yes. But I believe 
what I also said is that without significant modification to 
the receiving launch system, the launch vehicle--so, yes, the 
RD-180 could be transitioned to another launch system, but it 
would come with mods [modifications].
    Mr. Rogers. General Hyten, there are claims that industry 
doesn't need any money to get off the RD-180 or the solutions 
are fully funded. In your judgment, can we just rely on 
industry to provide us the capabilities we need for our 
military? In the end, will the government need to pay for its 
requirements?
    General Hyten. No, we can't, Congressman, in my opinion, 
and I think Dr. Griffin answered this well earlier when he 
talked about the business case that is really out there. And if 
you look at the business case, the business case is national 
security space launches, which means this is national security 
mission, which means we need to be able to fund the critical 
elements of the industrial base to make sure that is there. 
And, right now, that element of the industrial base is not 
there to support where we need to go in the future. I think it 
is the responsibility of the Department of Defense and the 
government to make sure that industrial base is there for 
national security.
    Mr. Rogers. Excellent. I have many more questions. But I am 
going to submit them to you all to get back to us for the 
record because it is noon, and we have worn out our welcome 
with you all, I am afraid. But, I very much appreciate your 
time and effort. You have been enormously helpful to us. And I 
look forward to our continuing efforts to get off this RD-180 
and onto a new path of independence.
    With that, this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

      
=======================================================================

                            A P P E N D I X

                             June 26, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 26, 2015

=======================================================================

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 26, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 26, 2015

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS

    Ms. Van Kleeck. It is Aerojet Rocketdyne's position that major 
modifications to the Atlas V launch vehicle are not required to 
integrate the AR1 main propulsion system as a replacement for the RD-
180. Aerojet Rocketdyne engineers have been working directly with ULA 
engineers under a cooperative agreement to ensure that AR1 will 
interface with the existing Atlas vehicle and launch pad 
infrastructure. For example, Aerojet Rocketdyne has taken specific 
actions to ensure the length of the AR1 engine does not interfere with 
the mobile launch platform. AR1 propellant interfaces meet the RD-
180's, ensuring major re-routing of vehicle feed lines is not required. 
Some modification to avionics, ancillary feed systems, thrust 
structure, etc. will be required but are considered minor impacts. If 
ULA chooses to take advantage of the AR1's increased performance over 
the RD-180 by increasing the vehicle's propellant load, that would 
require greater changes to the launch vehicle and pad; however, it is 
Aerojet Rocketdyne position that those changes are not required to 
address the immediate concern of maintaining the viability of Atlas and 
could be reserved for future upgrades. In addition, it is Aerojet 
Rocketdyne's position that none of these upgrades represent the level 
of impact to all aspects of ULA's launch infrastructure that will be 
required by a the proposed new methane/liquefied natural gas (LNG) 
fueled ``Vulcan'' launch vehicle.   [See page 20.]
    Dr. Griffin. My list of re-engined stages and engines which have 
been used on more than one launch platform is attached.   [See page 
42.]
    [The list referred to can be found in the Appendix on page 164.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LAMBORN
    Mr. Thornburg. The Falcon 9 Launch System was certified on May 27, 
2015. As General Hyten, General Greaves, Secretary McFarland, and Dr. 
Griffin noted in response to your line of questions, the Air Force has 
a standard procedure in place to validate upgrades to launch systems in 
the EELV Program. These procedures have been used for both the Atlas V 
and Delta IV systems for numerous upgrades, including to the RL10 
upper-stage engine and the RS-68A first-stage engine, among other 
upgrades for the incumbent provider's rockets.
    In their testimony, Gen Hyten and Gen Greaves, explained this 
process (emphasis added):
          ``HYTEN: And the other point I will say, sir, is that part of 
        the transition phase of that is moving to the full thrust 
        engines on their Merlin capability. Now that's a very similar 
        process to what we went through on the Delta vehicle when we 
        went from an RS-68 to the RS-68A. They actually work closely 
        with us as they go through that. That's part of the normal 
        process, that we work with both Atlas and Deltas over the 
        years. We've done that on the upper stage as well. Once we go 
        through and certify the system, it's basically a baseline 
        capability, and then as industry learns and develops new 
        capabilities, they have to come back to us and demonstrate 
        their changes that go through. And the lucky part is General 
        Greaves is actually the certifier. So he can talk about all the 
        details of that. So I will pass it to General Greaves.
          GREAVES: Well, Congressman, as General Hyten said, the Air 
        Force has designated my position as the certification official 
        for new entrants. And as part of that in assessing SpaceX's 
        capability, we're working with them very closely. In fact, I 
        co-chair meetings every two weeks with Gwynne Shotwell, Elon 
        Musk level, to assess the current status of what they have 
        proposed, any changes that they are envisioning or have 
        realized into their system to ensure it becomes certified in 
        time. So in the end we are well aware of proposed changes to 
        the Falcon 9 1.1 system as part of the upgrade that was 
        discussed in the other panel. We are daily, our teams are 
        organic government team, our FRDC team, we are working with 
        SpaceX to fully understand what it will what it will take to 
        accept those changes, whatever they may be, as a certified 
        system. This is no different, sir, than we have done with ULA 
        in the past. In fact, last December, when we flew the RL10C, 
        which is an upgraded second stage engine, we went through a 
        significant effort with ULA ahead of time to understand the 
        changes of that system, what it of that engine, what it would 
        do to the system and then certify it for flight, which is which 
        we did last December and it flew very successfully for the 
        first time. So, today as we speak, SpaceX has provided what 
        changes they envision for the upgraded Falcon 9. We are daily 
        in an intense effort with them to understand and hopefully 
        certify that system.
          LAMBORN: And you mentioned test flights in the case of ULA, 
        will test flights be part of the protocol with SpaceX?
          GREAVES: As a as a basis, yes, sir, but I will use the RL10C 
        as an example. That engine was qualified as part of ULA's 
        design and delivery process. And we flew it for the first time 
        with an operational mission, it was a classified mission, back 
        in December. So it depends on the level, degree, amount, impact 
        of the changes that we're looking at to determine whether or 
        not it would require a reflight or test flight. It is no 
        different, sir, than what we've done historically with our 
        launch providers.
          LAMBORN: And, Dr. Griffin, would you care to comment?
          GRIFFIN: I would agree with General Greaves with regard to 
        certification of new capability. In fact, I would say the idea 
        that we fly a large number of repeated copies of rockets is 
        something that may look true from the outside but, truthfully, 
        it's rare to go very long in a string without upgrading or 
        changing something about the rocket. So you are in this 
        continual process of evolution and, certainly, certainly we 
        don't do a non-value-added test flight, a whole separate test 
        flight with no payload, merely because we go from an RL10B to 
        an RL10C. You just wouldn't want to spend that kind of money. 
        On the other hand, when you're fielding an entirely new rocket, 
        you will do a couple of test flights before typically before 
        you put a valuable payload on it. So there's an informed 
        engineering and program management judgment that has to be 
        applied to determine when you're willing to risk an upgrade 
        without a test flight and when you need when you need a test 
        flight because the upgrade is just so big that you don't want 
        to risk the payload.''   [See page 30.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN
    Mr. Thornburg. SpaceX refers you to our response to Question #15 
from Mr. Coffman [on page 176].   [See page 17.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 26, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. When there is a failure of a launch system, which is 
the same system to be used national security space missions, should the 
Department conduct an independent failure review board? Why or why not? 
What is the historical precedent?
    Secretary McFarland. If a launch system that carries, or intends to 
carry, a National Security Space (NSS) payload has a flight failure, as 
has recently occurred with the Space X Falcon 9, the Department expects 
to be granted insight into the investigation and its findings. This 
expectation remains true even if the launch failure did not involve an 
NSS payload.
    Failure investigations for NSS missions are typically handled by 
the Air Force under Air Force Safety and Accident Board regulations. 
For additional information on this process the Air Force can provide 
you with details of historical precedents and current Failure Review 
Board practices. This effort is performed under the direction of the 
Air Force Space Command Commander and the Air Force Space and Missile 
System Center Commander.
    Mr. Rogers. Considering SpaceX's recent failure with a Falcon 9, 
are you planning to revisit the certification decision? Why or why not? 
If there is no root cause identified and final plan to address the 
problem before the upcoming GPS launch competition, what is your plan?
    Secretary McFarland. Air Force Space Command is charged with 
determining the certification status of any launch system/launch 
provider seeking to provide launch services for National Security Space 
payloads. The Space and Missile Systems Center Commander (SMC/CC) is 
the designated certification official and makes all certification 
decisions.
    If a root cause for the Space X Falcon 9 v1.1 flight failure is not 
identified prior to the award of the GPSIII-2 launch service, the 
certifying official will make a risk-based decision on the offered 
launch systems certification status. The evaluation criterion for the 
GPS III-2 mission, which has been released for industry review, 
requires that the offered launch system must be certified. Unless the 
launch system offered to the government is not certified, the 
contractor proposals will be evaluated in accordance with the published 
criteria.
    Mr. Rogers. When there is a failure of a launch system, which is 
the same system to be used national security space missions, should the 
Department conduct an independent failure review board? Why or why not? 
What is the historical precedent?
    General Hyten and General Greaves. (1) The Air Force conducts 
parallel, independent investigations or reviews of significant launch 
anomalies and launch failures of launch systems used for NSS missions, 
regardless of the nature of the mission.
    (2) NSS missions are subject to the USAF mission assurance process, 
resulting in a certification of spaceflight worthiness. Therefore, the 
cause and corrective action of any failure of a launch system used for 
NSS launches needs to be understood so that any residual risks can be 
folded into the spaceflight worthiness assessment for future NSS 
missions. Furthermore, in the event of the failure of a NSS mission, an 
AFSPC-chartered Accident Investigation Board (AIB) or Independent 
Review Team would need to ascertain whether the NSS mission assurance 
process adequately addressed any elevated risk areas. The USAF would 
conduct an independent failure review for any NSS launch failure.
    For non-NSS missions (such as the SpaceX Falcon 9-20 CRS-7 
mission), other agencies such as the FAA would have the responsibility 
for mishap reviews; but AFSPC (to include SMC) have official 
representation on those review teams and access to all data. AFSPC or 
the Department could choose to begin an independent review at any time 
if needed to support a future NSS mission.
    The Air Force mission assurance process includes a post flight 
analysis for all launches whether successful or not. The results of 
these analyses are incorporated into the spaceflight worthiness 
determination for future launches. This process includes independent 
verification and validation activities.
    (3) There was an in-flight anomaly on the GPS-IIF-3 mission in 
2012. SMC and AFSPC convened Independent Review Teams, even though the 
mission was successfully accomplished. The SMC team, which included 
technical support by The Aerospace Corporation, worked in close 
coordination with the contractor (United Launch Alliance, ULA) on the 
investigation, conducting independent analyses and tests where 
appropriate. The NASA and the NRO also participated in the ULA-led 
investigation. The AFSPC Independent Review Team complemented the ULA-
led anomaly investigation team, provided an independent assessment of 
the investigation processes and conclusions, and reported their 
conclusions directly to the AFSPC Commander. The return to flight was 
granted by the SMC Commander (the certifying official) after Launch 
Systems Directorate and Delta IV Chief Engineer recommendations to do 
so, and with concurrence of the AFSPC Commander.
    Mr. Rogers. Considering SpaceX's recent failure with a Falcon 9, 
are you planning to revisit the certification decision? Why or why not? 
If there is no root cause identified and final plan to address the 
problem before the upcoming GPS launch competition, what is your plan?
    General Greaves. (1) Not at this time; SpaceX remains certified for 
the Falcon 9 Launch System and can compete for and win award of NSS 
missions.
    (2) A failed mission does not automatically drive a revisit to a 
certification decision or a revocation of a certification. A launch 
system remains certified unless a significant process or design change, 
or some other certification factor (such as manufacturing quality), 
causes the certification authority (SMC/CC) to determined that the 
launch system or provider is no longer certified.
    The Falcon 9 Launch System has flown 18 successful missions prior 
to the failure. Also, as part of the certification, the USAF assessed 
and accepted the SpaceX anomaly resolution process, which they are 
using to determine the root cause of the recent in-flight failure.
    (3) Space X expects to arrive at initial root cause findings and 
implement corrective actions by Fall 2015, which will support the GPS 
launch competition timelines. If root cause determination and 
corrective actions are not complete in this timeframe, then the USAF, 
in support of the GPS launch competition, will evaluate Space X's plan 
for completing the remaining open non-recurring work, to include work 
to resolve open flight and qualification anomalies. Regardless of the 
outcome of the GPS launch competition evaluation, the USAF will 
continue to observe Space X's technical progress and stay engaged as we 
do with all certified providers who are addressing technical issues 
with their launch systems.
    Mr. Rogers. When there is a failure of a launch system, which is 
the same system to be used national security space missions, should the 
Department conduct an independent failure review board? Why or why not? 
What is the historical precedent?
    Dr. Griffin. Historically, when a launch system failure has 
occurred the DOD has always either conducted a failure review under its 
own auspices, or required total visibility into any failure 
investigation conducted by its contractors, or both.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. To clarify, how much do you estimate the adjustments to 
Atlas will cost with respect to using an AR1 engine? Is it $100 
million-$200 million?
    Mr. Bruno. A U.S. developed engine will not be a pure ``drop-in'' 
replacement for the RD-180. Current U.S. technology is not capable of 
replicating RD-180 performance, and the RD-180 fluid-mechanical thrust 
vector control (TVC) technology does not exist outside of Russia. None 
of the variants of the AR-1 under consideration would address these 
differences.
    The current U.S. state of the art allows two near drop-in design 
options: 1) Almost the same physical interfaces, but lower system 
performance as a result of reduced engine performance (higher weight, 
lower efficiency). 2) Same or greater system performance through some 
vehicle changes to offset lower engine performance.
    The minimum set of vehicle/system changes as outlined above for the 
lower performance option would cost approximately $100M. To enable 
equivalent or greater Atlas performance the cost would be approximately 
$200M.
    Mr. Cooper. If you pursue the Atlas with the AR1, will you be able 
to reach the more difficult orbits?
    Mr. Bruno. No, we could not fly the missions that currently require 
the most capable Atlas variant with 5 solid rocket boosters (Atlas 
551). Other missions would require the addition of an SRB making Atlas 
less competitive.
    A less capable Atlas booster when coupled with our planned advanced 
upper stage (ACES) could not fly the missions that currently require a 
Delta IV Heavy launch vehicle. ULA would have to continue to offer the 
more expensive Delta IV Heavy to meet the requirements for these 
critical national security payloads.
    More extensive modifications to the booster to offset the lower 
engine performance could address these shortfalls, but would increase 
the total booster development costs to approximately $200M.
    Mr. Cooper. Would the BE-4 be available to other launch providers 
other than ULA?
    Mr. Meyerson. The blue Origin BE-4 engine will be available for 
purchase by all space launch providers of the United States.
    Mr. Cooper. Mr. Griffin stated during the hearing that ``It is 
easily possible to show that SpaceX has received about $3.5 billion or 
so, possibly more, in open source funding. Seeing as how they have 
conducted seven launches for NASA, counting the one upcoming this week, 
that is either an extraordinarily high price per launch of about a half 
a billion dollars per launch, which I don't believe is the case, or a 
considerable amount of that money has gone into capitalizing the 
company. The money was not segregated out, according to Dragon or 
Falcon 9, so I very strongly believe that the government money which 
has been provided to SpaceX has in fact gone for the development of 
Falcon 9.'' Would you care to respond to this statement or clarify it 
for the record?
    Mr. Thornburg. Dr. Griffin's testimony merits clarification and 
correction. To begin, under the Commercial Orbital Transportation 
Services (COTS) Program, NASA contributed a total of $396M toward the 
development of a capability to carry cargo to and from the 
International Space Station (ISS), as well as demonstration missions of 
that capability. The milestones associated with these payments are 
publically available. SpaceX invested well more than $450M of private 
funds toward the development of Falcon 9, including upgrades, and the 
Dragon spacecraft. To date, beyond the COTS Program, NASA development 
funds include $75M for CCDev2 and $460M for CCiCap.
    SpaceX has operational launch services contracts with a host of 
international and domestic commercial purchasers of launch services, as 
well as operational contracts with NASA for cargo missions and 
satellite delivery missions. Dr. Griffin misunderstands and conflates 
milestone-based payments under operational launch services contracts 
versus system development contracts. For instance, SpaceX's cargo 
contract under NASA Commercial Resupply Services (CRS) is a services, 
not a development, contract. This service includes the manufacture and 
launch of a Dragon spacecraft on a Falcon 9 launch vehicle, plus the 
operations, ISS berthing, reentry, and recovery of the Dragon 
spacecraft. Pricing for these missions is approximately $130M per 
mission, on a fixed price basis. SpaceX notes that NASA pays for all of 
its launches, including those with other providers, under services-
based agreements.
    Finally, SpaceX recently won a firm fixed price contract, as did 
Boeing, for astronaut carriage capability development and demonstration 
missions under the ``CCtCap, for a total possible value of $2.6B 
depending on the number of missions that NASA exercises. Notably, the 
SpaceX contract includes up to six missions--launches and returns from 
the Space Station--as well as development. Further, this contract is 
structured with performance, milestone-based payments. In other words, 
SpaceX is only paid when it performs contractually agreed-upon 
milestones (or work) under the contract. SpaceX would note that the 
Boeing Company received a similar contract with a total value of $4.2B, 
for performing the exact same requirements. If Dr. Griffin's reasoning 
were true, which it is not, then the same arguments would apply to 
Boeing, of course.
    SpaceX Falcon 9 pricing for commercial customers is $60M; pricing 
for U.S. Government missions for satellite carriage is well below 
$100M.
    Mr. Cooper. How will SpaceX plan to fulfill its national security, 
civil, and commercial missions, and how will you prioritize the 
missions if necessary, in response to potential disruption to its 
manifest caused by the recent CRS-7 mission failure?
    Mr. Thornburg. SpaceX currently anticipates returning to flight in 
the fall of 2015. With respect to prioritization of missions, SpaceX 
will work with all of our customers to satisfy their needs and meet 
contractual requirements.
    SpaceX maintains a clear manifest policy that is part of each of 
our commercial contracts, which prioritizes critical U.S. Government 
missions. Here, SpaceX's Air Force and NASA Commercial Resupply 
Services (CRS) contracts are rated either DO, DX, or in support of the 
International Space Station (ISS), meaning that SpaceX has a 
contractual legal right to prioritize these launches ahead of 
commercial missions, as necessary. Further, SpaceX has invested 
internal funds in the development of additional launch infrastructure 
(i.e. the South Texas launch site and LC-39A at NASA Kennedy Space 
Center) to eliminate any manifest congestion and any schedule conflicts 
at the Federal Ranges in the coming years.
    Presently, SpaceX is not under contract for any EELV missions; the 
first competitive opportunity in over a decade is set for release in 
the coming weeks. The first launch of a competed EELV opportunity would 
occur no earlier than 2017 based on acquisition and satellite 
integration timelines.
    Mr. Cooper. Can SpaceX describe how it plans to reach the more 
difficult orbits?
    Mr. Thornburg. The SpaceX Falcon 9 launch vehicle is currently 
certified under the EELV Program for 4 of the 8 reference orbits for 
the Program. The four reference orbits for which the Falcon 9 has been 
certified correspond to upcoming competitive missions in Phase 1A. 
SpaceX will certify the Falcon Heavy launch vehicle to all eight EELV 
reference orbits.
    Mr. Cooper. What is the right balance in a public/private 
partnership in terms of funding a new engine? What are the incentives 
for private industry to develop a new engine and what is the value of 
planned expenditures by the Department of Defense that these companies 
would compete for in the national security market once they have 
developed an engine?
    Secretary McFarland. The Department is very supportive of a public/
private partnership for the development of a new rocket propulsion 
system. The actual funding balance between the Department and industry 
will be based on the evaluation of industry proposals as the Air Force 
implements its 4-step acquisition strategy. The 4-step strategy allows 
for an incremental approach to develop new launch capabilities that 
utilize domestically designed and manufactured rocket propulsion 
systems and result in systems that meet all the Department's launch 
service requirements. The Department's goal is to have industry fund 
the public/private partnership to the maximum extent possible that 
still supports a positive return on investment for industry. This 
strategy will enable the Department to transition away from the use of 
RD-180 engines for National Security Space (NSS) missions in the 2022 
timeframe.
    At present, the Department is confident that market forces support 
a public/private investment strategy. Launch service providers will 
likely be highly motivated to ensure their ability to participate in 
the future NSS launch market due to the projected mission requirements 
and the corresponding long-term revenue opportunities. The Department 
estimates that between now and 2030, which is the currently projected 
end of the EELV program of record, over $40B in NSS launch services 
contracts may be awarded.
    Mr. Cooper. What is your recommendation for getting best value for 
the taxpayer money with regard to launch and development of a new 
engine or launch system, as we seek to ensure access to space while 
phasing out reliance on RD-180s?
    Secretary McFarland. The Department supports the Air Force's 
strategy for obtaining the best value to the government by implementing 
their 4-step acquisition process to develop a new launch system 
utilizing a domestically produced propulsion system. This process 
allows industry to communicate all alternatives and government to 
ensure we gain the information required to be a ``good customer.'' The 
4-step process also allows for an incremental approach to develop new 
launch capabilities that utilize domestically designed and manufactured 
rocket propulsion systems and result in systems that meet all the 
Department's launch service requirements. This process was also 
designed to allow the Air Force and industry to optimize the ratio 
between government/industry investment.
    Mr. Cooper. What is the right balance in a public/private 
partnership in terms of funding a new engine? What are the incentives 
for private industry to develop a new engine and what is the value of 
planned expenditures by the Department of Defense that these companies 
would compete for in the national security market once they have 
developed an engine?
    General Hyten and General Greaves. 1) The balance between the 
Government and private industry will be dependent on each industry 
solution. Some industry solutions may be mature, but require additional 
development to meet national security space requirements. In those 
cases the Government may fund a higher share of the investment. Other 
solutions may be less mature, but show great promise to both be 
commercially viable and meet national security launch needs. In those 
cases, the industry share may be larger. Industry has generally 
responded favorably to public/private cost share.
    2) The primary incentive for industry investment is the ability to 
capture future market share in both the national security and 
commercial launch markets. The EELV program plans to procure $36.6B of 
launch services for National Security Space (NSS) missions from FY18-
FY30, and the commercial launch market appears to have a stable demand 
during that same period. However, if either the Government or 
commercial market weakens, it may be difficult for industry to achieve 
their desired return on investment.
    Private industry benefits from developing a new or upgraded engine 
if it is quickly combined with investment to integrate the engine into 
or develop a domestic commercially viable launch system that allows 
them to compete for NSS missions. Industry participants will share 
development costs with the Government, a fact that will help them 
obtain favorable financing and increase their attractiveness to 
commercial satellite providers. The goal is a robust U.S. industry for 
future NSS launch services that is also competitive for the global 
commercial launch market.
    The exact amount of planned expenditures by the Department of 
Defense for the shared investment portion of these programs depends 
largely on the solutions proposed by industry, and ultimately, which 
solutions are selected for Government investment.
    Mr. Cooper. What is your recommendation for getting best value for 
the taxpayer money with regard to launch and development of a new 
engine or launch system, as we seek to ensure access to space while 
phasing out reliance on RD-180s?
    General Hyten and General Greaves. Investing in industry at the 
launch service level is the best option to quickly and effectively 
transition off the RD-180 while also meeting program cost, schedule, 
and performance goals. Specifically, partnering with industry harnesses 
industry's creative ideas to meet national security launch needs while 
keeping the Government from bearing the full cost burden. Cost sharing 
offers the best chance of solving technical challenges and meeting 
schedule goals. Partnering with industry will also improve assured 
access to space, because the commercial partners will develop domestic, 
commercially viable launch systems that meet national security space 
launch requirements, rather than just a domestic engine that would 
still require complete launch system development.
    The Air Force has developed a four step plan to partner with 
industry and invest in domestic, commercially-viable launch services. 
Step 1 is funding the up-front technical maturation and risk reduction. 
Step 2 is shared investment in industry's proposed rocket propulsion 
systems. Step 3 expands this shared investment to encompass the entire 
launch system. Step 4 is to award launch services to certified 
providers. These four components are not mutually exclusive, and 
aspects of each may overlap or be conducted in parallel with the 
others. The goal of this plan is to ensure two or more domestic, 
commercially viable launch providers that also meet National Security 
Space requirements and are available as soon as possible but no later 
than the end of Phase 2 (FY22) or earlier.
    Mr. Cooper. What is the right balance in a public/private 
partnership in terms of funding a new engine? What are the incentives 
for private industry to develop a new engine and what is the value of 
planned expenditures by the Department of Defense that these companies 
would compete for in the national security market once they have 
developed an engine?
    Dr. Griffin. I cannot say what the ``right balance'' of public/
private investment would be for a new engine, as the answer depends in 
part upon a corporate business-case assessment. I am not privy to any 
of the internal financial information that the relevant companies would 
use to make this assessment. However, I will offer the opinion that 
even if no corporate investment is made in developing a new engine to 
replace the RD-180 presently employed on the Atlas V, we as a nation 
should still proceed with this effort. This is a critical national 
security item, and whether or not a corporate business case can be made 
for private investment in such an engine, it is needed for U.S. 
government purposes and should be developed. The projected cost of such 
an engine, less that $1.5 billion, is considerably lower than even the 
most optimistic cost estimates associated with grounding the Atlas and 
moving its present manifest of national security payloads to the Delta 
4 family. Replacing the Russian RD-180 with an equivalent American 
engine is the lowest-cost forward path for the Department of Defense to 
preserve its national security launch architecture, irrespective of 
whether any private investment is brought to bear.
    Mr. Cooper. What is your recommendation for getting best value for 
the taxpayer money with regard to launch and development of a new 
engine or launch system, as we seek to ensure access to space while 
phasing out reliance on RD-180s?
    Dr. Griffin. I believe that ``best value'' for the American 
taxpayer would be attained by building, as expeditiously as possible, 
an American replacement for the Russian RD-180 as it is used on Atlas 
V. In the meantime, to avoid any gap in our national security space 
access, we should procure as many RD-180 engines from Russia as that 
nation is willing to sell.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Mr. Coffman informed SpaceX that Ms. Shotwell 
testified in March that DCAA has been working in SpaceX facilities. Mr. 
Coffman asked if this was a correct statement and SpaceX responded yes. 
As a follow-up, can SpaceX please describe the audits that DCAA has 
conducted with SpaceX and how many DCAA professionals are currently 
working with SpaceX? [Question #15, for cross-reference.]
    Mr. Thornburg. In her March 2015 appearance, Ms. Shotwell testified 
that SpaceX presently had DCAA auditors doing manufacturing audits. 
Here, a distinction should have been drawn between DCAA and DCMA. DCAA 
does not do manufacturing audits; rather, ``DCMA'' was auditing SpaceX 
at the time of the Shotwell testimony and has done so annually relative 
to certain NASA and DOD contracts. Further, DCMA professionals worked 
on SpaceX's EELV certification for more than a year. Further, SpaceX 
has provided audited financials and rates to the Government for review. 
For its part, in the context of the EELV Program, DCAA has performed 
verification of SpaceX labor rates. SpaceX provides 10-15 in-facility 
workspaces for U.S. Government officials engaged in contract management 
oversight, with the division of these seats between NASA, Air Force, 
DCMA and DCAA, as appropriate and at the discretion of our Government 
customers with input from SpaceX.
    Mr. Coffman. Prior to June 28th, During the CRS-1 missions there 
have been numerous anomalies of both the launch vehicle and spacecraft 
(Dragon). Out of 6 missions flown, 4 of the Dragon capsules have 
experienced anomalous behavior, including thruster failure and salt 
water leakage. Considering that the next evolution (Dragon 2) will be 
utilized for Crew efforts, and that capsule is anticipated to be re-
usable, what is SpaceX doing to mitigate the anomalies that occurred 
during CRS-1 missions (for missions 1-6)? What ``turnaround'' 
activities does SpaceX anticipate performing to ready a previously 
flown Dragon capsule for a subsequent crewed mission? What specialized 
readiness reviews will SpaceX and the USG conduct to ensure readiness 
of the capsule?
    Mr. Thornburg. It is important to understand that anomalies occur 
on every space mission ever flown. As General Hyten noted in his recent 
testimony before the committee when asked about launch anomalies: 
``we've also had the same things with Atlas launches. We've had the 
same thing with Delta launches. And we go back and look at that.''
    Dragon has successfully performed missions to and from the ISS 
seven times. Notably, Dragon is the only operational capsule in the 
entire world at present capable of carrying significant down-mass from 
space--all other capsules either burn up on reentry or have highly 
limited cargo capability. Although Dragon was lost during the CRS-7 
mishap, Dragon was not the cause of the failure--and in fact survived a 
high energy event intact, demonstrating the spacecraft's inherent 
robustness.
    SpaceX's rockets and spacecraft were designed from the beginning to 
carry crew with built-in redundancies throughout, including avionics 
with triple-string computing, engine-out capabilities on both Falcon 9 
and Dragon, and an integrated escape capability, which unlike past 
abort tower systems, provides astronauts with escape capability all the 
way to orbit. SpaceX and NASA conduct robust post-mission analyses with 
a focus on continuous improvement of our systems and vigilance 
regarding safety and mission assurance.
    One of the best ways to validate safety systems is through actual 
flight testing. With our cargo version of the Dragon spacecraft, SpaceX 
is able to test the vast majority of systems designed to keep 
astronauts safe well before any astronaut actually flies. This provides 
a distinct advantage to not only meet NASA's safety requirements, but 
ultimately, with NASA's support, build the safest and most reliable 
human spacecraft ever flown.
    There is no agreement in place with NASA to fly ``previously 
flown'' Dragon capsules for subsequent crewed missions. SpaceX and 
Boeing have contracts with NASA under the CCtCap program that dictate 
the reviews necessary prior to crewed missions.
    Mr. Coffman. Falcon Heavy is 3 years delayed on original 
commitments. In 2011 Elon Musk stated that, ``Falcon Heavy will arrive 
at our Vandenberg, California launch complex by the end of next year, 
with liftoff to follow soon thereafter. First launch from our Cape 
Canaveral launch complex is planned for late 2013 or 2014.'' In March 
of 2015 SpaceX testified that Falcon Heavy would finally fly, ``later 
this year.''
    Considering the delayed schedule and the recent letter of intent 
submitted regarding the certification process of Falcon Heavy, how does 
SpaceX plan to mitigate the schedule gap? Why is Falcon Heavy 3 years 
behind schedule?
    Mr. Thornburg. SpaceX submitted its updated EELV certification 
statement of intent (SOI) for the Falcon Heavy on April 14, 2015. 
SpaceX has timed Falcon Heavy development and demonstration to precede 
our contractual obligations for the operational launch of the vehicle. 
Contractual commitments are the gaining factor here. The first launch 
contract for Falcon Heavy--for STP-2, an Air Force mission--was pushed 
back as a result of a delay with the Government's COSMIC-2 payload. 
Accordingly, SpaceX was in a position to move back our self-funded 
demonstration flight of the Falcon Heavy, while focusing on EELV 
certification of the Falcon 9 launch vehicle and other matters.
    SpaceX anticipates flying a Falcon Heavy demonstration flight in 
the first half of 2016, well in advance of the vehicle's first 
contracted missions. We have additional commercial Falcon Heavy flights 
under contract in 2016. Falcon Heavy will be ready for any planned 
Phase 2 EELV missions years ahead of their anticipated launch dates, 
scheduled to begin no earlier than 2020, and will have numerous flights 
in advance of any EELV mission that the vehicle might be used to 
perform.
    Mr. Coffman. The Mitchell Study recommended stockpiling RD-180 
engines to smooth the transition to an American made system but current 
legislation prohibits such a stockpile. Given the recent failure of 
SpaceX's Falcon 9, do you believe Congress should relook at the 
timelines and numerical restrictions imposed on the use of the RD-180?
    General Hyten and General Greaves. This anomaly does not alter the 
Air Force's position with respect to the RD-180 restrictions. The Air 
Force maintains assured access to space via two launch vehicle families 
per U.S. law and Presidential policy. This is currently provided by 
United Launch Alliance's (ULA) Atlas V and Delta IV launch vehicles. 
However, the Air Force is reintroducing competition into the Evolved 
Expendable Launch Vehicle (EELV) program. ULA's Atlas V vehicle is 
their lowest-cost offering when compared to the Delta IV vehicle, 
thereby providing competitive prices until new launch vehicles are 
available, likely no earlier than 2021. Additional RD-180s will be 
required in order to maintain assured access to space at a reasonable 
cost to the Government.
    Excluding heavy lift missions in EELV Acquisition Phase 1A and 
Phase 2, the Atlas V is capable of lifting approximately 9 and 25 
missions, respectively, for a total of approximately 34 missions. 
However, we believe authorization to use up to 18 RD-180 engines in the 
competitive procurement and award of launch service contracts through 
Fiscal Year 2022 is a reasonable starting point to mitigate risk 
associated with assured access to space and to enable competition. As 
the competitive environment develops and evolves, we will re-assess the 
number of engines required to ensure we maintain assured access to 
space.
    Mr. Coffman. The Mitchell Study recommended stockpiling RD-180 
engines to smooth the transition to an American made system but current 
legislation prohibits such a stockpile. Given the recent failure of 
SpaceX's Falcon 9, do you believe Congress should relook at the 
timelines and numerical restrictions imposed on the use of the RD-180?
    Dr. Griffin. I am absolutely of the opinion that our present 
legislative quota on the import and stockpiling of the RD-180 engine is 
far too low. While I strongly believe that we should end our dependence 
upon Russia for this engine as soon as it is possible to do so, we 
should not ``cut off our nose to spite our face'' in the attempt. 
Continued use of the RD-180 until we have a domestic replacement is the 
best course of action available to us at this point, and I offer that 
opinion irrespective of the status of Falcon 9. Even if the recent 
failure of that vehicle had not occurred, most payloads manifested on 
Atlas could not be launched on Falcon 9, as its payload capacity is 
relatively limited for the foreseeable future. Our national security 
space launch requirements cannot be fully met without Atlas, and for 
the next 5 years Atlas cannot launch without the RD-180.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. In a worst case scenario, the United States could 
find itself reliant on a single provider for national security space 
launches. If that sole U.S. provider failed, then America could lose 
access to space for national security payloads. Given the possibility 
of such a scenario, are there any launch vehicles currently provided by 
close allies which can cover a broad range of EELV-class missions?
    Secretary McFarland. A waiver to National Space Transportation 
Policy and statute would be required to launch a National Security 
Space (NSS) payload on a launch vehicle not manufactured in the United 
States. Even if such a waiver was granted, significant engineering 
analysis would be required to determine what, if any, NSS payloads 
would be compatible with an allied nation's launch vehicle. At present, 
no allied launch capability has a demonstrated capability that meets 
all NSS requirements. While it is possible to evolve this capability, 
NSS payloads would need to be assessed for compatibility.
    Mr. Bridenstine. In a worst case scenario, the United States could 
find itself reliant on a single provider for national security space 
launches. If that sole U.S. provider failed, then America could lose 
access to space for national security payloads. Given the possibility 
of such a scenario, are there any launch vehicles currently provided by 
close allies which can cover a broad range of EELV-class missions?
    General Hyten and General Greaves. Public Law 111-314 (51 U.S.C. 
50131) and National Space Transportation Policy require National 
Security Space (NSS) systems be launched using United States commercial 
providers. Currently, assured access to space for NSS missions is 
provided by United Launch Alliance (ULA) with the Delta IV and Atlas V. 
The SpaceX Falcon 9 recently completed certification to compete for NSS 
launch services. While it is possible that other allied systems could 
launch a subset of NSS missions, the detailed studies have not been 
accomplished to ensure we can meet all NSS stressing requirements. If 
all domestic paths to space are precluded, the Air Force would consider 
all options, in consultation with the Congress, to regain access to 
space as quickly as possible.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BROOKS
    Mr. Brooks. Both the U.S. Air Force and ULA have asserted to this 
committee that it will require approximately $200 million to integrate 
AR1 into the Atlas V. You, however, stated to the committee that the 
cost to do so would be in the tens of millions. I am wondering why 
there is such a large discrepancy.
    Are we comparing apples to apples--or apples to oranges? How so? In 
your view, what vehicle are the Air Force and ULA referring to when 
they cite an AR1 integration cost of $200 million? What vehicle are you 
referring to when you cite an AR1 integration cost of ``tens of 
millions?''
    Ms. Van Kleeck. The $200 million figure ULA refers to is the 
estimated cost to develop a proposed ``Vulcan/AR1'' launch vehicle. 
While Vulcan/AR1 would be a derivative of the current Atlas V, it is 
envisioned by ULA that this new launch vehicle would have an 
approximately 30% greater propellant load. Integration of an AR1 engine 
main propulsion system is included in that value. Vulcan/AR1 is not to 
be confused with Vulcan/BE-4, which represents a wholesale change of 
the launch vehicle and infrastructure from kerosene propellant to 
methane (Liquefied Natural Gas, or LNG) propellant. Mr. Bruno, in his 
testimony, acknowledged that Vulcan/BE-4 would cost $600M-$800M. 
Aerojet Rocketdyne's work with ULA on the AR1 engine and an AR1 main 
propulsion system--comprised of two AR1 engines mated together--has 
revealed that no major modifications to the Atlas V launch vehicle are 
required to integrate the AR1 as a replacement for RD-180 booster 
engine. Aerojet Rocketdyne estimates the non-recurring costs to 
integrate the AR1 engine main propulsion system into the existing Atlas 
V launch vehicle to be between $50 million and $75 million, including 
launch vehicle integration and certification costs.
    Mr. Brooks. Is there precedent for re-engining a launch vehicle, 
particularly the Atlas? Please elaborate for the committee.
    Ms. Van Kleeck. Yes, there is a strong precedent for re-engining 
launch vehicles, including the Atlas. Most recently, as the Atlas 
evolved from the Atlas IIAS to the Atlas III, the vehicle was re-
engined from the Rocketdyne MA5 engine to the Russian-made RD-180 
engine. Throughout its history, the Atlas program has made incremental 
changes rather than wholesale launch vehicle changes, to include 
stretching the onboard tanks, avionics changes and engine changes. The 
incremental evolution of the Atlas system maintains mission success 
with far less risk than an entirely new launch vehicle and the required 
accompanying infrastructure changes.
    Similarly, in the civil space arena, the Antares launch vehicle is 
currently undergoing a re-engining from the AJ26 (derived from the 
Russian NK-33 engine) to the Russian-made RD-181 booster engine.
    Mr. Brooks. What would be the cost to integrate AR1 into the 
current existing version of Atlas V? Upon what do you base this cost 
estimate? Has this estimate been shared with ULA?
    Ms. Van Kleeck. Aerojet Rocketdyne estimates the non-recurring 
costs to integrate an AR1 engine main propulsion system into the 
existing Atlas V launch vehicle would be between $50 and $75 million. 
This estimate includes launch vehicle integration, infrastructure mods 
and certification. Our estimate is based on: 1) Aerojet Rocketdyne's 
two decades of work on the oxygen rich staged combustion cycle, 
previous internal company and U.S. government investment, and advances 
in materials science and manufacturing techniques, 2) an engine 
designed to integrate into the Atlas V with minimal changes required. 
This estimate has been shared with ULA.
    Mr. Brooks. What would be the range of payloads the current Atlas V 
with an AR1 booster engine could launch to geosynchronous transfer 
orbit (GTO)? What number and type of expected NSS payloads would such a 
configuration be unable to launch?
    Ms. Van Kleeck. The Atlas V featuring an AR1 engine main propulsion 
system would provide similar performance to the existing Atlas V, 
including coverage of all USAF EELV missions currently served by Atlas 
V. The same Atlas V/AR1 combination however would not be able to launch 
missions currently flown on the Delta IV Heavy.
    Mr. Brooks. Would re-engining the Atlas V with AR1 allow for a 
faster, less costly and lower risk transition off of the RD-180? If 
yes, how so? If not, why not?
    Ms. Van Kleeck. Yes, coupling the AR1 engine in a main propulsion 
system comprised of two AR1 engines mated together onto the Atlas V 
offers the fastest, lowest cost and lowest risk approach to the U.S. 
government. The AR1 engine has been designed from the start to minimize 
launch vehicle modifications to the current Atlas V. Building on 
Aerojet Rocketdyne's long history of successfully developing rocket 
engines for the Nation, the AR1 features advanced oxygen-rich staged 
combustion technology, is an all U.S. design, provides a 500,000 lbf 
thrust class that is configurable to multiple U.S. launch vehicles--
including the 1 million lbf thrust AR1 main propulsion system for the 
current Atlas V--leverages the existing liquid oxygen-kerosene launch 
infrastructure, operations and facilities and utilizes new materials 
and advanced manufacturing techniques, like additive manufacturing. 
Aerojet Rocketdyne developed the last major U.S. liquid rocket engine, 
the RS-68 that powers the Delta IV launch vehicle, in five years. 
Similarly, Aerojet Rocketdyne is on course to complete development, 
undergo certification and bring the AR1 into production by the end of 
2019--5 years after initiation of dedicated development.
    Mr. Brooks. How has Aerojet Rocketdyne gained the knowledge and 
experience to build an engine that will leapfrog the Russian technology 
used in the RD-180 engine? Over what time period did you execute this 
work?
    Ms. Van Kleeck. Aerojet Rocketdyne's development of a new American 
liquid rocket engine, the AR1, is not a new program in Fiscal Year 
2015. Since the 1990s, Aerojet Rocketdyne has been working on Oxygen 
Rich Staged Combustion (ORSC) technology. ORSC is the combustion cycle 
that will be used in the AR1. More than two decades of technology 
efforts support the rapid development of this advanced engine. AR1 
leverages over $300 million in government and Aerojet Rocketdyne 
company investments. AR1 will be a thoroughly modern rocket engine 
using the latest engineering analysis, manufacturing techniques, and 
advances in materials science. As an example, Aerojet Rocketdyne 
materials science research and development has enabled us to develop an 
oxygen resistant material to eliminate the need for the coatings that 
the Russians used in earlier designs. Through the use of modern 
electronics, AR1 will also forego the need for the hydraulic ``step 
ladder'' actuation that is used in the RD-180. Aerojet Rocketdyne is 
also employing additive manufacturing techniques to develop state of 
the art, world class launch engine components at an affordable price 
for the government customer.
    Additionally, Aerojet Rocketdyne currently participates in two 
existing competitively won contracts to perfect ORSC technology: NASA's 
Advanced Booster Engineering Development and Risk Reduction Program 
(ABEDRR) and the U.S. Air Force's Hydrocarbon Booster Technology 
Program (HCBT).
    Mr. Brooks. Dr. Griffin stated that as NASA Administrator he funded 
development of the Falcon rocket. To SpaceX, how much money has NASA 
invested in SpaceX development efforts since inception of the company? 
If SpaceX is unable to answer, would DCAA be able to assist in the 
evaluation of USG funds paid to SpaceX?
    Mr. Thornburg. Dr. Griffin was referring to the Commercial Orbital 
Transportation Services (COTS) program, which was initiated under his 
tenure during the Bush Administration.
    Under the Commercial Orbital Transportation Services (COTS) 
Program, NASA contributed a total of $396M towards the development of a 
capability to carry cargo to and from the International Space Station, 
as well as demonstration missions of that capability. Your question 
pertains to development alone. SpaceX went beyond this to both develop 
and demonstrate. The milestones associated with these payments are 
publically available. SpaceX invested well more than $450M of private 
funds toward the development of Falcon 9, including upgrades, and the 
Dragon spacecraft. To date, beyond the COTS Program, NASA development 
funds include $75M for CCDev2; and $460M for CCiCap.
    SpaceX recently won a firm fixed price contract, as did Boeing, for 
astronaut carriage capability development and demonstration under 
CCtCap, for a total possible value of $2.6B. Notably, the SpaceX 
contract includes up to six missions--launches and returns from the 
Space Station--as well as development. This contract is structured with 
performance, milestone-based payments. In other words, SpaceX is only 
paid when it performs contractually agreed-upon milestones (or work) 
under the contract. SpaceX would note that the Boeing Company received 
a similar contract with a total value of $4.2B, for performing the 
exact same requirements.
    SpaceX has operational launch services contracts with a host of 
international and domestic commercial purchasers of launch services, as 
well as operational contracts with NASA for cargo missions and 
satellite delivery missions.
    Mr. Brooks. Can SpaceX provide a technical description of how the 
Falcon vehicle and propulsion system can meet all 8 of the EELV 
reference missions to, as Representative Cooper described, the 
appropriate orbits?
    Mr. Thornburg. SpaceX would be pleased to brief the Congressman on 
the technical aspects of the Falcon family of vehicles, in the 
appropriate forum. In short, Falcon 9 is certified to execute missions 
associated with 4 reference orbits, and Falcon Heavy will be certified 
to all 8 reference orbits. The Air Force will validate that these 
requirements will be met as part of the EELV certification process.
    Mr. Brooks. SpaceX stated that any government funding should be 
matched 50/50 by commercial investment. Can SpaceX verify that this 50/
50 split was the case for the development of Falcon and Dragon? If 
SpaceX is not able to verify, would DCAA be able to assist in the 
evaluation of the proper use of USG funds?
    Mr. Thornburg. Under the Commercial Orbital Transportation Services 
(COTS) Program, NASA contributed a total of $396M toward the 
development of a capability to carry cargo to and from the 
International Space Station, as well as operational demonstration 
missions of that capability. As noted above, under the COTS program, 
SpaceX contributed 53% of the development funds. The U.S. Government 
contributed $396M under this program; SpaceX invested well more than 
$450M of private funds toward the development of Falcon 9, including 
upgrades, and the Dragon spacecraft.
    Mr. Brooks. In the hearing, the term Low-Price Technically 
Acceptable (LPTA) was mentioned. In light of the SpaceX accident and 
considering the value of national security payloads, can you describe 
the risk that is required to compete launches with a LPTA selection 
criteria? In the long run and beyond current budget challenges, is LPTA 
worth the risk to the tax payer and to the warfighter? What criteria 
will the USG use in assessing a proper balance between price and 
technical acceptability?
    Mr. Thornburg. The Air Force and the Department of Defense are 
responsible for development of source selection criteria associated 
with Requests for Proposals. SpaceX cannot comment on the criteria that 
the USG will use in assessing price and technical acceptability. SpaceX 
notes that NASA and a number of other agencies, as well as the entire 
commercial world, purchase launches services on a commercial fixed-
price basis. Further, DOD itself has purchased LPTA launch services in 
the recent past. Launch should be treated as a commercial commodity 
and, based on this, the appropriate FAR contracting models should 
apply, as required by law.
    Mr. Brooks. Can you please describe how the SpaceX accident on the 
June 28th will impact the schedule and selection criteria for the 
upcoming GPS III mission competition?
    Mr. Thornburg. The Air Force and the Department of Defense are 
responsible for the schedule and selection criteria for the upcoming 
GPS III mission competition. According to public reports, the Air Force 
has stated that it plans to issue the RFP for this mission in the 
coming weeks. SpaceX looks forward to participating in this 
competition--the first competition held in the EELV Program in the last 
ten years.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Knowing that Atlas V and Delta IV rockets are the two 
systems currently capable of meeting the full gamut of national 
security payload requirements, what is the Department's existing backup 
plan should there be a catastrophic failure or disruption preventing 
either system from being used?
    At this year's Space Symposium in Colorado Springs, you mentioned 
your concerns with using an unproven system to launch some of our 
nation's most critical and costly satellites. If the United States is 
faced with a scenario in which a backup system is immediately needed, 
are there proven systems currently being used by NATO allies that could 
serve as viable alternatives?
    It's my understand that Europe's Ariane 5 rocket is a proven system 
capable of heavy-lift launches and slated to be the launch vehicle for 
the James Webb Space Telescope--the most sophisticated and costly 
telescope ever built. Given its track record, could the Ariane 5 serve 
as a viable backup to both the Atlas and Delta systems?
    General Hyten. Public Law 111-314 (51 U.S.C. 50131) and National 
Space Transportation Policy require National Security Space (NSS) 
systems be launched using United States commercial providers. If all 
United States commercial providers are precluded, the Air Force would 
consider all options, in consultation with the Congress, to regain 
access to space as quickly as possible. Preliminary studies based on 
open source information indicate that the Ariane 5 launch vehicle is 
capable of meeting the requirements for some NSS missions.

                                  [all]
</pre></body></html>
